No.

IN THE SUPREME COURT OF THE UNITED STATES

JAMES A. GIDEON,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

DENNIS C. BELLI
536 South High St. Fl. 2
Columbus, Ohio 43215-5785
Phone:(614) 300-2911
Fax: (888) 901-8040
Email:
bellilawoffice@yahoo.com
ATTORNEY FOR PETITIONER

[Until this opinion appears in the Ohio Official Reports advance sheets, it may be cited as State
v. Gideon, Slip Opinion No. 2020-Ohio-6961.]

NOTICE
This slip opinion is subject to formal revision before it is published in an
advance sheet of the Ohio Official Reports. Readers are requested to
promptly notify the Reporter of Decisions, Supreme Court of Ohio, 65
South Front Street, Columbus, Ohio 43215, of any typographical or other
formal errors in the opinion, in order that corrections may be made before
the opinion is published.

SLIP OPINION NO. 2020-OHIO-6961
THE STATE OF OHIO, APPELLANT AND CROSS-APPELLEE, v. JAMES A. GIDEON,
APPELLEE AND CROSS-APPELLANT.
[Until this opinion appears in the Ohio Official Reports advance sheets, it
may be cited as State v. Gideon, Slip Opinion No. 2020-Ohio-6961.]
Medical license is a property right and threatened loss of the license is a form of
coercion—R.C. 4731.22(B)—Coercion is not sufficient to warrant the
suppression of statements made during a medical-board investigative
interview unless defendant’s belief that he would lose his license if he failed
to participate in the medical-board interview and answer questions
truthfully is both subjectively believed and objectively reasonable—Court
of appeals erred by finding that assignment of error relating to the
sufficiency-of-the-evidence claim was moot under App.R. 12(A)(1)(c)—
Court of appeals’ judgment reversed and cause remanded.

1a

SUPREME COURT OF OHIO

(No. 2019-1104—Submitted August 4, 2020—Decided December 15, 2020—
Reconsideration Granted and Slip Opinion Reissued December 31, 2020.1)
APPEAL and CROSS-APPEAL from the Court of Appeals for Allen County,
Nos. 1-18-27, 1-18-28, and 1-18-29, 2019-Ohio-2482.
__________________
STEWART, J.
{¶ 1} In Ohio, a medical doctor has a statutory duty to answer truthfully
questions posed by an investigator of the state medical board. The question
presented in this appeal is whether the state may use incriminating answers given
by a doctor during a medical-board investigation in a subsequent criminal
prosecution of that doctor. We conclude that a medical license is a property right
and that the threatened loss of the license is a form of coercion that can compromise
the United States Constitution’s Fifth Amendment privilege against selfincrimination. That said, in order for coercion to be sufficient to warrant the
suppression of statements made during a medical-board investigative interview,
first, the person making the statements must subjectively believe that asserting the
privilege against self-incrimination could cause the loss of the person’s medical

1. On December 15, 2020, this court issued its judgment and original opinion in this case. Appellee
and cross-appellant, James Gideon, filed a motion for reconsideration asserting as follows:
(1)

(2)

This court incorrectly deferred to the trial court’s legal conclusion regarding both prongs of
the Graham test (for adjudicating Garrity claims), see State v. Graham, 136 Ohio St.3d 125,
2013-Ohio-2114, 991 N.E.2d 1116; Garrity v. New Jersey, 385 U.S. 493, 87 S.Ct. 616, 17
L.Ed.2d 562 (1967); and
This court should clarify its remand order to require the Third District Court of Appeals to
adjudicate Gideon’s other assignments of error because this court’s decision “un mooted” his
remaining assignments of error.

We grant Gideon’s motion to reconsider. This reissued opinion clarifies that this court
conducted an independent review when we reached the conclusion that Gideon did not satisfy the
Graham test. In addition, the opinion clarifies our previous remand language to instruct the court
of appeals to consider Gideon’s other assignments of error that were deemed moot.

2

2a

January Term, 2020

license, and second, that belief must be objectively reasonable. In this case, the
doctor’s belief that he could lose his medical license if he refused to answer
truthfully questions posed by the medical-board investigator was not objectively
reasonable. Because the court of appeals reached a contrary conclusion and held
that statements made by the doctor were inadmissible at trial, we reverse.
{¶ 2} We also conclude that the court of appeals erred by determining that
its remand order mooted an assignment of error relating to the sufficiency of the
evidence. An assignment of error challenging the sufficiency of the evidence is
potentially dispositive of a defendant’s conviction and may not be rendered moot
by a remand on any other assignment of error.
Factual Background
{¶ 3} Appellee and cross-appellant, James Gideon, was licensed as a
physician by the State Medical Board of Ohio and maintained a practice in
rheumatology. In 2017, three of his patients accused him of inappropriately
touching them during office visits. Two investigations were opened: one by the
local police and one by an investigator working for the state medical board.
Although Gideon told the police that he did not inappropriately touch any patients,
the investigator told the police that Gideon admitted to misconduct.

The

investigator shared that information with the police as the medical board is
authorized to do under R.C. 4731.22(F)(5).
{¶ 4} The state charged Gideon with three third-degree misdemeanor
counts of sexual imposition in three separate cases that were consolidated for trial.
Gideon moved to suppress the statements that he had made to the investigator as
having been illegally compelled in violation of the Fifth Amendment to the United
States Constitution. He argued that because he believed he was required to submit
to the interview by the medical board and answer the investigator’s questions or
risk losing his medical license, the medical-board investigator coerced his
admissions with the threat of losing his medical license. The trial judge denied the

3

3a

SUPREME COURT OF OHIO

motion to suppress, concluding that Gideon “made voluntary statements during a
noncustodial interview.” A jury found Gideon guilty in all three cases. The trial
court imposed a jail term of 60 days in each case and ordered the sentences to run
consecutively to each other.
{¶ 5} On appeal, the Third District Court of Appeals reversed the
convictions. The court of appeals determined that the trial court should have
granted Gideon’s motion to suppress consistent with Garrity v. New Jersey, 385
U.S. 493, 87 S.Ct. 616, 17 L.Ed.2d 562 (1967), which held that statements obtained
from a public employee under threat of job loss are unconstitutionally coerced and
inadmissible in subsequent criminal proceedings. The court noted that Gideon had
a statutory duty to answer truthfully all questions posed by the medical-board
investigator and that the investigator “created an impression that Gideon’s refusal
to cooperate with his investigation would result in the type of penalty prohibited
under Garrity,” 2019-Ohio-2482, 130 N.E.3d 357, ¶ 51.
{¶ 6} Both the state and Gideon appealed the appellate court’s judgment.
The state offers this proposition of law:
When a non-government employee gives a statement to an
administrative board/licensing agency governed by the state, and
when there is no threat of loss of employment or removal from
office, that statement is not subject to Garrity v. New Jersey, 385
U.S. 493 (1967).
{¶ 7} Gideon offers two cross-propositions of law:
(1) A licensing board investigator’s intent to assist law
enforcement in obtaining a criminal conviction for the purpose of
influencing the outcome of an administrative-sanction proceeding

4

4a

January Term, 2020

against a licensee is a factor strongly weighing in favor of a finding
that the licensee had an objectively reasonable belief that assertion
of his Fifth Amendment Privilege Against Self-Incrimination would
expose him to revocation of his license and loss of his livelihood.
(2) Under App.R. 12(A)(C), a court of appeals has a duty to
adjudicate any assignment of error that raises a claim of
insufficiency of the evidence to support a criminal conviction or that
involves a claim of error that is likely to again become an issue
during proceedings upon remand.
The Privilege Against Self-Incrimination
{¶ 8} We will first address the state’s proposition of law together with
Gideon’s first cross-proposition of law. The Fifth Amendment to the United States
Constitution provides that no person “shall be compelled in any criminal case to be
a witness against himself.” Article I, Section 10 of the Ohio Constitution provides
the same protection: “No person shall be compelled, in any criminal case, to be a
witness against himself * * *.” “The Amendment not only protects the individual
against being involuntarily called as a witness against himself in a criminal
prosecution but also privileges him not to answer official questions put to him in
any other proceeding, civil or criminal, formal or informal, where the answers
might incriminate him in future criminal proceedings.” Lefkowitz v. Turley, 414
U.S. 70, 77, 94 S.Ct. 316, 38 L.Ed.2d 274 (1973).
{¶ 9} Because a witness may voluntarily testify to matters which may be
incriminating, the privilege against self-incrimination is not self-executing. The
witness seeking the privilege must “claim it.” United States v. Monia, 317 U.S.
424, 427, 63 S.Ct. 409, 87 L.Ed. 376 (1943). If the witness answers a question, the
answer will be considered voluntary. See Minnesota v. Murphy, 465 U.S. 420, 427,

5

5a

SUPREME COURT OF OHIO

104 S.Ct. 1136, 79 L.Ed.2d 409 (1984). Gideon did not assert the privilege against
self-incrimination during his interview with the medical-board investigator.
{¶ 10} At times, when it is necessary to “safeguard the core constitutional
right protected by the Self-incrimination Clause,” an assertion of the privilege
against self-incrimination is not required. Chavez v. Martinez, 538 U.S. 760, 770,
123 S.Ct. 1994, 155 L.Ed.2d 984 (2003) (plurality opinion). An exception to
asserting the privilege exists for statements made during custodial interrogations in
which the state undermines the privilege by physically or psychologically coercing
a suspect. See Miranda v. Arizona, 384 U.S. 436, 448-450, 86 S.Ct. 1602, 16
L.Ed.2d 694 (1966).
{¶ 11} The right to remain silent can also be infringed by coercion when
there is a penalty for asserting the right.

In Garrity, the attorney general

investigated police officers for fixing traffic tickets. Although advised of their right
to remain silent, the officers also were told that refusing to answer questions would
lead to the termination of their employment. The officers answered questions and
the state used some of their answers against them in a subsequent criminal case.
The U.S. Supreme Court observed that “[t]he option to lose their means of
livelihood or to pay the penalty of self-incrimination is the antithesis of free choice
to speak out or to remain silent.” Garrity, 385 U.S. at 497, 87 S.Ct. 616, 17 L.Ed.2d
562. The court thus held that the confessions were not voluntary but coerced and
that the Fourteenth Amendment prohibited the use of the statements in subsequent
criminal proceedings. Id. at 497-498, 500.
{¶ 12} Unlike the officers in Garrity, Gideon is not a public employee. He
was a medical doctor in private practice. As a practicing physician, he was subject
to licensure by the state medical board. See R.C. 4731.17(B) (state medical board
shall issue licenses to practice medicine). Gideon’s medical license constitutes a
liberty and property interest subject to due-process protections. Watts v. Burkhart,
854 F.2d 839, 842 (6th Cir.1988) (“the freedom to pursue a career is a protected

6

6a

January Term, 2020

liberty interest, and * * * state regulation of occupations through a licensing process
gives rise to protected property interests”); see also Flynn v. State Med. Bd., 2016Ohio-5903, 62 N.E.3d 212, ¶ 45 (10th Dist.).
{¶ 13} The medical board has disciplinary authority over medical doctors
and may “limit, revoke, or suspend a license or certificate to practice or certificate
to recommend, refuse to issue a license or certificate, refuse to renew a license or
certificate, refuse to reinstate a license or certificate, or reprimand or place on
probation the holder of a license or certificate * * *.” R.C. 4731.22(B). Among
the reasons listed for exercising the authority to impose such sanctions is the
“[f]ailure to cooperate in an investigation” and the “failure to answer truthfully a
question presented by the board in an investigative interview * * *.”

R.C.

4731.22(B)(34).
{¶ 14} The state’s threat to impose a legal penalty for the failure to give
truthful responses in a state-medical-board investigation is coercive. This threat
puts a medical doctor in the position of having to choose between two rights: the
property right in the medical license or the privilege against self-incrimination. See
Spevack v. Klein, 385 U.S. 511, 512, 87 S.Ct. 625, 17 L.Ed.2d 574 (1967) (privatepractice lawyer could not be disbarred for refusing to testify at a judicial inquiry
into professional misconduct).
{¶ 15} A different approach is required when, as here, the person under
investigation has not been “expressly confronted * * * with the inescapable choice
of either making an incriminatory statement or being fired,” State v. Graham, 136
Ohio St.3d 125, 2013-Ohio-2114, 991 N.E.2d 1116, ¶ 23. When incriminating
statements are not coerced by the direct threat of job termination, we apply an
“objectively reasonable” “subjective belief” test. Id. Under that test, statements
are compelled by threat of discharge if (1) a person subjectively believed that
asserting the privilege would lead to discharge and (2) that belief was objectively
reasonable under the circumstances. Id.

7

7a

SUPREME COURT OF OHIO

{¶ 16} Applying the Graham test, the trial court found that while Gideon
testified that he subjectively believed that he would “be penalized” with the loss of
his medical license if he did not answer questions posed by the medical-board
investigator, his belief was not objectively reasonable.
{¶ 17} In Graham, we explained that the objective reasonableness of a
defendant’s belief that disciplinary action will result unless the defendant
cooperates requires a showing of “some demonstrable coercive action by the state
beyond ‘[t]he general directive to cooperate.’ ” (Brackets sic.) Graham at ¶ 23,
quoting United States v. Vangates, 287 F.3d 1315, 1324 (11th Cir.2002). We
further explained that “ ‘ordinary job pressures, such as the possibility of discipline
or discharge for insubordination, are not sufficient to support an objectively
reasonable expectation of discharge.’ ” Id., quoting People v. Sapp, 934 P.2d 1367,
1372 (Colo.1997).
{¶ 18} Gideon did not establish through evidence that coercive action by
the medical-board investigator had occurred. The trial court found no evidence that
the medical-board investigator informed Gideon that “he must waive his rights
against self-incrimination or subject himself to discharge or revocation of his
license.” And neither Gideon nor the investigator mentioned during the interview
anything that suggested Gideon could lose his medical license if he refused to
comply with the investigator’s questioning.
{¶ 19} Besides the lack of evidence showing that Gideon had an objectively
reasonable basis for believing that he could lose his medical license, the trial court
correctly found that R.C. 4731.22(B), which requires a doctor’s cooperation in an
investigation, does not subject that doctor “to an automatic suspension or
revocation” of a license should the doctor exercise the right to remain silent.
Although that section speaks in mandatory terms about discipline for certain
violations (the board “shall” impose one of the listed sanctions), discipline is not
automatic. It requires the affirmative vote of “not fewer than six” medical-board

8

8a

January Term, 2020

members to impose discipline for one of the reasons listed in R.C. 4731.22(B). And
even when the medical board determines that a doctor has committed a violation,
revocation of a medical license is not a required sanction—it is one of several
sanctions available to the board. See R.C. 4731.22(B). In Gideon’s case, there was
no direct threat of discipline for failure to cooperate; he faced only the possibility
of discipline.
{¶ 20} The Third District disagreed: “the trial court did not capture the
concept of [R.C. 4731.22] and, more importantly, failed to consider the totality of
the circumstances surrounding Gideon’s interview * * *.” (Emphasis sic.) 2019Ohio-2482, 130 N.E.3d 357, at ¶ 31.
{¶ 21} Yet the trial court did consider the circumstances surrounding the
interview. In its findings of fact, the trial court observed that Gideon sounded
“eager to speak” with the investigator despite having no notice of the investigator’s
visit. Gideon declined the investigator’s offer to reschedule the interview. Because
the interview occurred in Gideon’s office, the investigator told Gideon that he
would pause the interview so that Gideon could see waiting patients. The trial court
found that Gideon “took the lead initially in the interview and described his
techniques with his patients prior to any substantive questions being posed by the
investigator.” Although Gideon testified during the suppression hearing that the
surprise nature of the interview denied him the ability to refresh his memory of the
specific patients, the trial court determined that Gideon “was able to give a very
detailed account of the treatments provided” and that only 18 minutes into the
interview, Gideon “admitted to touching certain areas on the patients and
succumbing to temptation.”
{¶ 22} Appellate review of a suppression ruling involves a mixed question
of law and fact. State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio-5372, 797
N.E.2d 71, ¶ 8. “An appellate court must accept the trial court’s findings of fact if
they are supported by competent, credible evidence.” State v. Hawkins, 158 Ohio

9

9a

SUPREME COURT OF OHIO

St.3d 94, 2019-Ohio-4210, 140 N.E.3d 577, ¶ 16. “[T]he appellate court must then
independently determine, without deference to the conclusion of the trial court,
whether the facts satisfy the applicable legal standard.” Burnside at ¶ 8, citing State
v. McNamara, 124 Ohio App.3d 706, 707 N.E.2d 539 (4th Dist.1997).
{¶ 23} The court of appeals did not dispute the trial court’s factual findings.
It believed, however, that the investigator acted as a “straw man” for the state.
2019-Ohio-2482, 130 N.E.3d 357, at ¶ 42. While the board may share with lawenforcement agencies any information it receives in an investigation, see R.C.
4731.22(F)(5), cooperation with law-enforcement officials does not necessarily
convert a medical-board investigation into a law-enforcement mission. See State
v. Jackson, 154 Ohio St. 3d 542, 2018-Ohio-2169, 116 N.E.3d 1240, ¶ 21, citing
Ohio v. Clark, 576 U.S. 237, 249, 135 S.Ct. 2173, 192 L.Ed.2d 306 (2015). The
investigator admitted that he agreed to share information with the police, but that
does not mean that he acted for the primary purpose of furthering a criminal
prosecution by the state. The investigator interviewed Gideon for the primary
purpose of determining whether Gideon was subject to disciplinary action by the
medical board for engaging in the misconduct alleged by his patients.
{¶ 24} We conclude that Gideon’s medical license is a property right and
that the threatened loss of the license is a form of coercion that can compromise the
United States Constitution’s Fifth Amendment privilege against self-incrimination.
That said, in order for coercion to be sufficient to warrant the suppression of
statements Gideon made during a medical-board investigative interview, his belief
that he would lose his license if he failed to participate in the medical-board
interview and answer questions truthfully must be both subjectively believed and
objectively reasonable. In this case, based on our independent, de novo review of
the facts and circumstances under which the investigator interviewed Gideon, we
conclude that Gideon’s belief that a refusal to answer truthfully questions posed by
the medical-board investigator could lead to the loss of his medical license was not

10

10a

January Term, 2020

objectively reasonable. We find, therefore, that Gideon has failed to satisfy the
legal standard established in Graham.
Duty to Adjudicate Assignments of Error
{¶ 25} In his second cross-proposition of law, Gideon claims that the court
of appeals erred by finding that his assignment of error relating to the sufficiency
of the evidence on one count of sexual imposition was moot. He argues that the
appellate court’s remand on the suppression issue did not moot this assignment of
error. We agree.
{¶ 26} App.R. 12(A)(1)(c) states that “[u]nless an assignment of error is
made moot by a ruling on another assignment of error,” a court of appeals shall
“decide each assignment of error and give reasons in writing for its decision.” An
assignment of error is moot when it cannot have “ ‘any practical legal effect upon
a then-existing controversy.’ ” Culver v. Warren, 84 Ohio App. 373, 393, 83
N.E.2d 82 (7th Dist.1948), quoting Ex parte Steele, 162 F. 694, 701
(N.D.Ala.1908). Put differently, an assignment of error is moot when an appellant
presents issues that are no longer live as a result of some other decision rendered
by the appellate court.
{¶ 27} An assignment of error going to the sufficiency of the evidence
supporting a criminal count is always potentially dispositive of that count. While
a reversal based on weight of the evidence does not preclude a retrial, a reversal
based on insufficient evidence leads to an acquittal that bars a retrial. See State v.
Thompkins, 78 Ohio St.3d 380, 387, 678 N.E.2d 541 (1997), citing Tibbs v. Florida,
457 U.S. 31, 47, 102 S.Ct. 2211, 72 L.Ed.2d 652 (1982). “Because ‘the state is not
entitled to retry a criminal defendant after reversal for trial court error if the state
failed in the first instance to present sufficient evidence * * * a defendant’s assigned
error that the conviction is based on insufficient evidence is not moot under these
circumstances.’ ” (Ellipsis added in Mathis.) State v. Mathis, 6th Dist. Lucas No.
L-18-1192, 2020-Ohio-3068, ¶ 78, quoting State v. Vanni, 182 Ohio App.3d 505,

11

11a

SUPREME COURT OF OHIO

2009-Ohio-2295, 913 N.E.2d 985, ¶ 15 (9th Dist.); see also State v. Croskey, 8th
Dist. Cuyahoga No. 107772, 2019-Ohio-2444, ¶ 9 (errors which could result in an
acquittal must be separately addressed).
{¶ 28} In State v. Brewer, 113 Ohio St.3d 375, 2007-Ohio-2079, 865
N.E.2d 900, we determined that the court of appeals erred by refusing to consider
an assignment of error challenging the sufficiency of the evidence after it had
determined trial error warranted reversal of the defendant’s conviction. A jury had
found Brewer guilty of gross sexual imposition. On direct appeal, he raised nine
assignments of error, including that hearsay testimony was improperly allowed by
the court and that the state failed to offer sufficient evidence. State v. Brewer, 8th
Dist. Cuyahoga No. 87701, 2006-Ohio-6029, ¶ 1. The court of appeals determined
that the trial court erred by allowing hearsay testimony into evidence and ordered a
new trial. Id. at ¶ 13. That finding led it to conclude that the remaining assignments
of error were moot. Id. We summarily reversed that decision: “[t]he judgment of
the court of appeals holding that the assignment of error in which appellant
challenged the sufficiency of the evidence was moot is reversed, and the cause is
remanded to the court of appeals for consideration of that assignment of error.”
Brewer, 113 Ohio St.3d 375, 2007-Ohio-2079, 865 N.E.2d 900, at ¶ 2.
{¶ 29} When a conviction is based on evidence that does not establish a
defendant’s guilt beyond a reasonable doubt, the court of appeals must vacate the
conviction and double-jeopardy protection bars the defendant’s retrial for the same
offense. An assignment of error raising the sufficiency of the evidence is thus
potentially dispositive of a particular count and cannot be moot. When evaluating
an assignment of error challenging the sufficiency of the evidence, a reviewing
court must consider all evidence admitted at trial, including the improperly
admitted evidence that was the source of the reversal for trial error. See State v.
Brewer, 121 Ohio St.3d 202, 2009-Ohio-593, 903 N.E.2d 284, ¶ 24-26. The court

12

12a

January Term, 2020

of appeals erred by finding that Gideon’s assignment of error relating to the
sufficiency-of-the-evidence claim was moot under App.R. 12(A)(1)(c).
Conclusion
{¶ 30} For the reasons stated above, we reverse the judgment of the Third
District Court of Appeals. We also remand the cause to that court to consider
Gideon’s assignment of error relating to the sufficiency of the evidence, and
because we reverse its judgment on the motion to suppress, the appellate court will
now need to consider Gideon’s other assignments of error that were deemed moot.
Judgment reversed
and cause remanded.
O’CONNOR, C.J., and KENNEDY, FRENCH, FISCHER, and DEWINE, JJ.,
concur.
DONNELLY, J., dissents, with an opinion.
_________________
DONNELLY, J., dissenting.
{¶ 31} The majority opinion states that the medical board can “ ‘limit,
revoke, or suspend’ ” a license to practice medicine if the licensee fails to
“ ‘cooperate in an investigation’ ” or “ ‘answer truthfully a question presented by
the board in an investigative interview.’ ” Majority opinion at ¶ 13, quoting R.C.
4731.22(B). The majority opinion concludes that appellee and cross-appellant,
James Gideon, subjectively believed that he could lose his license if he failed to
cooperate or to answer questions truthfully. I agree. See R.C. 4731.22(B)(34).
Based on the language of R.C. 4731.22(B), Gideon’s subjective belief that he could
lose his license was well-founded. But the majority opinion further concludes that
Gideon’s subjective belief was not objectively reasonable because he did not
demonstrate “ ‘coercive action by the state beyond “[t]he general directive to
cooperate.” ’ (Brackets sic.) [State v. Graham, 136 Ohio St.3d 125, 2013-Ohio-

13

13a

SUPREME COURT OF OHIO

2114, 991 N.E.2d 1116,] ¶ 23, quoting United States v. Vangates, 287 F.3d 1315,
1324 (11th Cir.2002).” Majority opinion at ¶ 17. I disagree.
{¶ 32} The majority concludes that the “investigator interviewed Gideon
for the primary purpose of determining whether Gideon was subject to disciplinary
action by the medical board for engaging in the misconduct alleged by his patients,”
majority opinion at ¶ 23. The well-written and unanimous opinion of the court of
appeals thoroughly explicates why the majority’s characterization of the
investigator’s interview of Gideon is untenable:
The evidence in the record reflects that the circumstances
surrounding the administrative investigation at issue in this case
show some demonstrable, coercive action by the state beyond the
general directive to cooperate. Indeed, the combination of Gideon’s
duty to cooperate under R.C. 4731.22(B)(34) and Investigator
Yoakam’s process in this case exceeded an ordinary job pressure to
cooperate.

As we have noted, R.C. 4731.22(B)(34) requires

licensees to cooperate with investigations of the board.[2 (originally fn.8)]
2. The following language appears as footnote 8 in the court of appeals’ opinion:
It appears that the State contends that R.C. 4731.22(B)(34)’s duty to
cooperate requires only that a subject answer truthfully questions posed by an
investigator of the board during an interview. Compare United States v.
Goodpaster, 65 F.Supp.3d 1016, 1029 (D.Or.2014) (noting that “[a]n order to
‘cooperate’ demands more of the reasonable employee than an order merely to be
‘truthful’ ”), citing Minnesota v. Murphy, 465 U.S. 420, 434, 104 S.Ct. 1136, 79
L.Ed.2d 409 (1984) (observing that “Murphy’s probation condition [to be
truthful] proscribed only false statements”). That is, the State argues that “[t]elling
falsehoods * * * is different than remaining silent, and the Fifth Amendment is
not implicated.” (Appellee’s Brief at 6). However, the text of that subsection of
the statute states that a subject must cooperate in investigations of the board. R.C.
4731.22(B)(34) proceeds to provide a non-exhaustive list of ways in which a
subject must cooperate with an investigation of the board—only one of which is
to provide truthful answers to questions presented by the board in an investigative
interview. See In re Hartman, 2 Ohio St.3d 154, 155-156, 443 N.E.2d 516 (1983)
(noting that the word “ ‘including’ implies that that which follows is a partial, not

14

14a

January Term, 2020

Compare [United States v. Goodpaster, 65 F.Supp.3d 1016, 1029
(D.Or.2014)] (noting that “Goodpaster was subject to a regulation
* * * requiring that he ‘cooperate with all audits, reviews, and
investigations conducted by the Office of Inspector General’ ”),
quoting 39 C.F.R. 230.3(a). R.C. 4731.22(B) puts licensees on
notice that their failure to cooperate, amongst other reasons, will
penalize their license (by a vote of no fewer than six members of the
board). Compare id. (“The same regulation provides that ‘failing to
cooperate [* * *] may be grounds for disciplinary or other legal
action.’ ”), quoting 39 C.F.R. 230.3(a).
Further, in addition to R.C. 4731.22(B)(34)‘s directive to
cooperate with the board’s investigation, the record reflects “some
demonstrable action of the state” supporting Gideon’s subjective
belief. See [People v. ]Sapp[, 934 P.2d 1367, 1372 (Colo.1997)];
[United States v. ]Camacho[, 739 F.Supp 1504, 1518 (S.D.Fla.)]. In
this case, the demonstrable action of the State lies with Investigator
Yoakam’s conduct and his intent underlying that conduct. Compare
Camacho, 739 F.Supp. at 1518-1519 (construing the evidence in the
record reflecting the “actions of the investigators” to determine
whether there was “demonstrable state conduct” and, thus, whether
the defendants’ beliefs that they would penalized for asserting their
Fifth Amendment rights were objectively reasonable).
At the suppression hearing, Investigator Yoakam testified to
the extent that he collaborated with law enforcement as part of his

an exhaustive listing of all that is subsumed within the stated category.
‘Including’ is a word of expansion rather than one of limitation or restriction.”).
(Emphases, brackets, and ellipses sic.)

15

15a

SUPREME COURT OF OHIO

investigation—that is, he specifically stated that the investigation of
Gideon “turned into a joint investigation.” (Aug. 22, 2017 Tr. at 4);
(Oct. 13, 2017 Tr. at 7, 20-21).

Indeed, Sergeant Hochstetler

concurred that he and Investigator Yoakam agreed “to cooperate
with each other” during the course of their investigations. (Oct. 13,
2017 Tr. at 51-52). By cooperating, Sergeant Hochstetler clarified
that meant that he and Investigator Yoakam would share
information. Investigator Yoakam elaborated that the Revised Code
permits him to share information obtained as part of his
investigations with law enforcement and that he will share such
information if there is “a shared interest.”

(Id. at 19-20).

Investigator Yoakam further testified that he shared the information
he collected (regarding Gideon) with the Bluffton Police
Department.
Undeniably, R.C. 4731.22(F) provides, in relevant part, the
following:
“(3) In investigating a possible violation of this chapter or
any rule adopted under this chapter, * * * the board may question
witnesses, conduct interviews, administer oaths, order the taking of
depositions, inspect and copy any books, accounts, papers, records,
or documents, issue subpoenas, and compel the attendance of
witnesses and production of books, accounts, papers, records,
documents, and testimony, except that a subpoena for patient record
information shall not be issued without consultation with the
attorney general’s office and approval of the secretary and
supervising member of the board.
“* * *

16

16a

January Term, 2020

“(4) All * * * investigations * * * of the board shall be
considered civil actions for the purposes of section 2305.252 of the
Revised Code.
“(5) * * *
The board may share any information it receives pursuant to
an investigation * * * with law enforcement agencies, other
licensing boards, and other governmental agencies that are
prosecuting, adjudicating, or investigating alleged violations of
statutes or administrative rules.”
R.C. 4731.22(F)(3)-(5) (Apr. 6, 2017) (current version at R.C.
4731.22(F)(3)-(5) (Mar. 20, 2019)).[3 (originally fn.9)]
Thus, while there is nothing inherently wrong with
Investigator Yoakam and law enforcement’s agreement to share
information, the evidence in the record reveals that Investigator
Yoakam exceeded statutorily permissible collaboration by taking
demonstrable steps to coerce Gideon to provide him an
incriminating, oral and written statement in reliance on Gideon’s
duty to cooperate. In other words, Investigator Yoakam was posing
3. The following language appears as footnote 9 in the court of appeals’ opinion:
R.C. 2305.252 applies to peer-review privilege. See, e.g., Cousino v.
Mercy St. Vincent Med. Ctr., 6th Dist. Lucas, 2018-Ohio-1550, 111 N.E.3d 529,
¶ 15 (“The purpose of this statute is to protect the integrity and confidentiality of
the peer review process so that health care entities have the freedom to
meaningfully review and critique—and thereby improve—the overall quality of
the healthcare services they provide.”). The statute also applies the peer-review
privilege to only the Bureau of Workers’ Compensation (“BWC”); however, the
statute excepts the BWC to “share proceedings and records within the scope of
the peer review committee * * * with law enforcement agencies, licensing boards,
and other governmental agencies that are prosecuting, adjudicating, or
investigating alleged violations of applicable statutes or administrative rules.”
R.C. 2305.252(B).
(Emphasis and ellipsis sic.)

17

17a

SUPREME COURT OF OHIO

as a “straw man” to effectuate law enforcement’s criminal
investigation. See State v. Gradisher, 9th Dist. Summit No. 24716,
2009-Ohio-6433, 2009 WL 4647378, ¶ 23 (Belfance, J., dissenting)
(approving the “concern that government agents should not pose as
‘straw men’ in order to effectuate police investigations”).
Specifically, Investigator Yoakam contacted Sergeant Hochstetler
prior to interviewing Gideon, and “discussed that [he] was going to
hold off on the administrative investigation until [law enforcement
determined] that [Investigator Yoakam] could interview [Gideon].”
(Oct. 13, 2017 Tr. at 7-8). Investigator Yoakam’s intention for
sharing his investigative plan with law enforcement was to
“determine how [law enforcement] was going to proceed with the
criminal case” because proving an administrative-sanction case is
easier “from a criminal conviction” as opposed to “through witness
testimony.” (Id. at 15-16). That is, he elaborated that his method is
“what they call a bootstrap on a criminal case that’s where a
physician * * * is criminally charged, and the Board takes action on
that criminal disposition, and the other [is] based on information
gathered in the course of an investigation. Action that’s taken based
on that.” (Id. at 15).
Prior to Investigator Yoakam’s interview of Gideon,
Sergeant Hochstetler told Investigator Yoakam that Gideon “denied
any improprieties during [law enforcement’s] interview” of Gideon.
(Oct. 13, 2017 Tr. at 21, 55). And, after discussing Gideon’s denials
to law enforcement with Sergeant Hochstetler, Investigator Yoakam
informed Sergeant Hochstetler that it would not be “appropriate” for
law enforcement to jointly interview Gideon with Investigator

18

18a

January Term, 2020

Yoakam. (Id. at 28, 55-56). Specifically, Investigator Yoakam
testified that
“doctor’s [sic] are obligated to cooperate in our investigation. So
[he] did not want that to * * * impede in * * * any of the criminal
proceedings...And [he] didn’t want * * * there to be an issue that the
doctor provided a statement with law enforcement present because
the provider is obligated to cooperate in our investigations.”
(Emphasis added.) (Id. at 29). (See also Oct. 13, 2017 Tr. at 55);
(Defendant’s Ex. 4). In other words, Investigator Yoakam’s method
was to avoid a scenario in which his interview (of Gideon) could not
be used as part of the criminal case because (as indicated by
Investigator Yoakam) the lack of a criminal conviction would make
his administrative-sanction case more cumbersome.

Compare

Gradisher at ¶ 23 (Belfance, J., dissenting) (expressing concern that
“government overreaching could easily occur by pushing off
criminal investigations to state agents so as to bypass protection
against the abridgement of an individual’s Fifth Amendment
rights”); Camacho, 739 F.Supp. at 1519 (noting that the
investigator’s action in purposely omitting “his preamble regarding
voluntariness and compulsion * * * in order to avoid flagging the
issue of voluntariness” “speaks louder” than any belief that the
statements were voluntary and concluding that “the investigators’
central aim was to take a statement first and litigate its admissibility
later”).
Moreover, based on our review of the record, Investigator
Yoakam’s intent for the investigation reflects the demonstrable state
action necessary to support Gideon’s subjective belief that his
medical license would be penalized if he failed to cooperate with

19

19a

SUPREME COURT OF OHIO

Investigator Yoakam’s investigation.

Specifically, Investigator

Yoakam’s interview of Gideon reflects his intent to assist law
enforcement in obtaining a criminal conviction of Gideon for
purposes of influencing the outcome the administrative-sanction
case against Gideon.
Even though he is not a law enforcement officer, Investigator
Yoakam testified that he had law enforcement training and is
familiar with the elements of offenses under the Revised Code,
including sexual imposition.

Keeping his training in mind,

Investigator Yoakam arrived unannounced to Gideon’s medical
office to conduct his interview to catch him “off guard” “to get the
truth out of [him].” (Oct. 13, 2017 Tr. at 5, 32-33). Despite Gideon
having patient appointments at the time of the visit, Investigator
Yoakam did not advise Gideon that he did not have to speak with
him that day or otherwise offer to reschedule—he merely asked
Gideon “if he would have a few minutes to chat with” him. (Id. at
5). (See also State’s Ex. A). In other words, Investigator Yoakam
did nothing to dissuade Gideon’s belief that he was statutorily
obligated to cooperate with his investigation, which included
consenting to Investigator Yoakam’s request to “chat.” Compare
Camacho at 1511 (“At no time during the interview or after did
either Sergeant Green or Assistant State Attorney DiGregory make
any effort to dissuade Sinclair of his view that he was compelled to
give a statement or answer his question.”).
(Emphases and ellipses sic; brackets added in citations and footnote numbers;
remaining brackets sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 38-45.

20

20a

January Term, 2020

{¶ 33} This analysis amply supports a conclusion that Yoakam’s
investigation was improperly coercive under Garrity v. New Jersey, 385 U.S. 493,
87 S.Ct. 616, 17 L.Ed.2d 562 (1967). Although there is nothing wrong with
Yoakam and the Bluffton Police Department sharing information, their approach
suggests that Yoakam was strategically attempting to elicit information to benefit
the Bluffton Police Department investigation.

This is tantamount to

collaborating—not merely sharing information that was collected independently.
If Yoakam had appeared at Gideon’s office with an officer from the Bluffton Police
Department, the coercive nature of the investigation would have been manifest. It
is no less so here. Yoakam was all but deputized to act for the benefit of the
Bluffton Police Department. Moreover, the court of appeals examined another way
in which the interview demonstrates that Gideon had an objectively reasonable
belief that his medical license was at risk if he did not cooperate:
Investigator Yoakam advised Gideon at multiple points to “to go
back to [law enforcement] and change his statement” to avoid facing
possible falsification charges. (Oct. 13, 2017 Tr. at 22). Investigator
Yoakam’s insistence that Gideon return to law enforcement to
change his statement is also evidence supporting Gideon’s belief
that a refusal to give a statement will be met with a licensure penalty.
That is, Investigator Yoakam’s insistence that Gideon provide law
enforcement with a statement reflects an intent to coerce Gideon to
cooperate with the investigation. Indeed, (as raised during crossexamination) if Investigator Yoakam was “just concerned about
[the] medical investigation there would be no need to tell [Gideon]
to go back to the police department and change his statement * * *.”
(Id. at 22).

21

21a

SUPREME COURT OF OHIO

(Brackets and ellipsis sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 48.
{¶ 34} The court of appeals also had appropriate concern that Yoakam’s
conduct after the interview reflects his understanding that he and the Bluffton
Police were engaged in a joint investigation, not a mere sharing of information:
At the conclusion of the interview, instead of reporting back
to the board, Investigator Yoakam immediately went to the Bluffton
Police Department to report Gideon’s confessions to law
enforcement. (See Defendant’s Ex. 2). Despite his employment
responsibilities with the State Medical Board, Investigator Yoakam
chose to immediately share Gideon’s confessions with law
enforcement “because the doctor had [ ] an interview with [law
enforcement] where he denied any impropriety so [he] wanted to tell
[law enforcement] what happened during [his] interview.” (Oct. 13,
2017 Tr. at 26-27). Moreover, Investigator Yoakam agreed that he
“wanted to assist [law enforcement] in that criminal investigation by
providing [law enforcement] with statements made by Dr. Gideon
during an interview that same day * * *[.]” (Id. at 27).
(Emphasis, brackets, and ellipsis sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 50.
{¶ 35} I agree with the court of appeals’ conclusion that
based on the facts and circumstances presented by this case,
Investigator Yoakam’s actions created an impression that Gideon’s
refusal to cooperate with his investigation would result in the type
of penalty prohibited under Garrity.

See Camacho at 1520

(concluding “that the actions of the State were directly implicated in
creating [the] belief” that the defendants’ subjective belief “that

22

22a

January Term, 2020

failure to answer would result in termination”). Therefore, Gideon’s
belief that his medical license would be penalized if he did not
cooperate with Investigator Yoakam’s investigation was objectively
reasonable. See id. Thus, Gideon’s statements were not voluntary
within the meaning of Garrity. Accord Graham, 136 Ohio St.3d
125, 2013-Ohio-2114, 991 N.E.2d 1116, at ¶ 30 (“Statements
extracted under these circumstances cannot be considered voluntary
within the meaning of Garrity.”)
2019-Ohio-2482, 130 N.E.3d 357, at ¶ 51.
{¶ 36} The circumstances of Yoakum’s interview demonstrate that it was
coercive and therefore that Gideon’s subjective belief that he could lose his medical
license if he did not answer was objectively reasonable. Accordingly, I conclude
that the trial court erred when it denied Gideon’s motion to suppress statements he
made to Yoakam. I would affirm the well-reasoned decision of the court of appeals.
I dissent.
_________________
Nicole M. Smith, Lima Assistant City Prosecuting Attorney, and Anthony
M. DiPietro, Deputy Law Director, for appellant and cross-appellee.
Dennis C. Belli, for appellee and cross-appellant.
_________________

23

23a

[Until this opinion appears in the Ohio Official Reports advance sheets, it may be cited as State
v. Gideon, Slip Opinion No. 2020-Ohio-5635.]

NOTICE
This slip opinion is subject to formal revision before it is published in an
advance sheet of the Ohio Official Reports. Readers are requested to
promptly notify the Reporter of Decisions, Supreme Court of Ohio, 65
South Front Street, Columbus, Ohio 43215, of any typographical or other
formal errors in the opinion, in order that corrections may be made before
the opinion is published.

SLIP OPINION NO. 2020-OHIO-5635
THE STATE OF OHIO, APPELLANT AND CROSS-APPELLEE, v. JAMES A. GIDEON,
APPELLEE AND CROSS-APPELLANT.
[Until this opinion appears in the Ohio Official Reports advance sheets, it
may be cited as State v. Gideon, Slip Opinion No. 2020-Ohio-5635.]
Medical license is a property right and threatened loss of the license is a form of
coercion—R.C. 4731.22(B)—Coercion is not sufficient to warrant the
suppression of statements made during a medical-board investigative
interview unless defendant’s belief that he would lose his license if he failed
to participate in the medical-board interview and answer questions
truthfully is both subjectively believed and objectively reasonable—Court
of appeals erred by finding that assignment of error relating to the
sufficiency-of-the-evidence claim was moot under App.R. 12(A)(1)(c)—
Court of appeals’ judgment reversed and cause remanded in part.
(No. 2019-1104—Submitted August 4, 2020—Decided December 15, 2020.)
APPEAL and CROSS-APPEAL from the Court of Appeals for Allen County,
Nos. 1-18-27, 1-18-28, and 1-18-29, 2019-Ohio-2482.

24a

SUPREME COURT OF OHIO

__________________
STEWART, J.
{¶ 1} In Ohio, a medical doctor has a statutory duty to answer truthfully
questions posed by an investigator of the state medical board. The question
presented in this appeal is whether the state may use incriminating answers given
by a doctor during a medical-board investigation in a subsequent criminal
prosecution of that doctor. We conclude that a medical license is a property right
and that the threatened loss of the license is a form of coercion that can compromise
the United States Constitution’s Fifth Amendment privilege against selfincrimination. That said, in order for coercion to be sufficient to warrant the
suppression of statements made during a medical-board investigative interview, it
must be both subjectively believed and objectively reasonable.

In this case,

competent, credible evidence supported the trial court’s factual finding that the
doctor did not objectively believe that a refusal to answer truthfully questions posed
by the medical-board investigator could lead to the loss of his medical license.
Because the court of appeals reached a contrary conclusion and held that statements
made by the doctor were inadmissible at trial, we reverse.
{¶ 2} We also conclude that the court of appeals erred by determining that
its remand order mooted an assignment of error relating to the sufficiency of the
evidence. An assignment of error challenging the sufficiency of the evidence is
potentially dispositive of a defendant’s conviction and may not be rendered moot
by a remand on any other assignment of error.
Factual Background
{¶ 3} Appellee and cross-appellant, James Gideon, was licensed as a
physician by the State Medical Board of Ohio and maintained a practice in
rheumatology. In 2017, three of his patients accused him of inappropriately
touching them during office visits. Two investigations were opened: one by the
local police and one by an investigator working for the state medical board.

2

25a

January Term, 2020

Although Gideon told the police that he did not inappropriately touch any patients,
the investigator told the police that Gideon admitted to misconduct.

The

investigator shared that information with the police as the medical board is
authorized to do under R.C. 4731.22(F)(5).
{¶ 4} The state charged Gideon with three third-degree misdemeanor
counts of sexual imposition in three separate cases that were consolidated for trial.
Gideon moved to suppress the statements that he had made to the investigator as
having been illegally compelled in violation of the Fifth Amendment to the United
States Constitution. He argued that because he believed he was required to submit
to the interview by the medical board and answer the investigator’s questions or
risk losing his medical license, the medical-board investigator coerced his
admissions with the threat of losing his medical license. The trial judge denied the
motion to suppress, concluding that Gideon “made voluntary statements during a
noncustodial interview.” A jury found Gideon guilty in all three cases. The trial
court imposed a jail term of 60 days in each case and ordered the sentences to run
consecutively to each other.
{¶ 5} On appeal, the Third District Court of Appeals reversed the
convictions. The court of appeals determined that the trial court should have
granted Gideon’s motion to suppress consistent with Garrity v. New Jersey, 385
U.S. 493, 87 S.Ct. 616, 17 L.Ed.2d 562 (1967), which held that statements obtained
from a public employee under threat of job loss are unconstitutionally coerced and
inadmissible in subsequent criminal proceedings. The court noted that Gideon had
a statutory duty to answer truthfully all questions posed by the medical-board
investigator and that the investigator “created an impression that Gideon’s refusal
to cooperate with his investigation would result in the type of penalty prohibited
under Garrity,” 2019-Ohio-2482, 130 N.E.3d 357, ¶ 51.
{¶ 6} Both the state and Gideon appealed the appellate court’s judgment.
The state offers this proposition of law:

3

26a

SUPREME COURT OF OHIO

When a non-government employee gives a statement to an
administrative board/licensing agency governed by the state, and
when there is no threat of loss of employment or removal from
office, that statement is not subject to Garrity v. New Jersey, 385
U.S. 493 (1967).
{¶ 7} Gideon offers two cross-propositions of law:
(1) A licensing board investigator’s intent to assist law
enforcement in obtaining a criminal conviction for the purpose of
influencing the outcome of an administrative-sanction proceeding
against a licensee is a factor strongly weighing in favor of a finding
that the licensee had an objectively reasonable belief that assertion
of his Fifth Amendment Privilege Against Self-Incrimination would
expose him to revocation of his license and loss of his livelihood.
(2) Under App.R. 12(A)(C), a court of appeals has a duty to
adjudicate any assignment of error that raises a claim of
insufficiency of the evidence to support a criminal conviction or that
involves a claim of error that is likely to again become an issue
during proceedings upon remand.
The Privilege Against Self-Incrimination
{¶ 8} We will first address the state’s proposition of law together with
Gideon’s first cross-proposition of law. The Fifth Amendment to the United States
Constitution provides that no person “shall be compelled in any criminal case to be
a witness against himself.” Article I, Section 10 of the Ohio Constitution provides
the same protection: “No person shall be compelled, in any criminal case, to be a

4

27a

January Term, 2020

witness against himself * * *.” “The Amendment not only protects the individual
against being involuntarily called as a witness against himself in a criminal
prosecution but also privileges him not to answer official questions put to him in
any other proceeding, civil or criminal, formal or informal, where the answers
might incriminate him in future criminal proceedings.” Lefkowitz v. Turley, 414
U.S. 70, 77, 94 S.Ct. 316, 38 L.Ed.2d 274 (1973).
{¶ 9} Because a witness may voluntarily testify to matters which may be
incriminating, the privilege against self-incrimination is not self-executing. The
witness seeking the privilege must “claim it.” United States v. Monia, 317 U.S.
424, 427, 63 S.Ct. 409, 87 L.Ed. 376 (1943). If the witness answers a question, the
answer will be considered voluntary. See Minnesota v. Murphy, 465 U.S. 420, 427,
104 S.Ct. 1136, 79 L.Ed.2d 409 (1984). Gideon did not assert the privilege against
self-incrimination during his interview with the medical-board investigator.
{¶ 10} At times, when it is necessary to “safeguard the core constitutional
right protected by the Self-incrimination Clause,” an assertion of the privilege
against self-incrimination is not required. Chavez v. Martinez, 538 U.S. 760, 770,
123 S.Ct. 1994, 155 L.Ed.2d 984 (2003) (plurality opinion). An exception to
asserting the privilege exists for statements made during custodial interrogations in
which the state undermines the privilege by physically or psychologically coercing
a suspect. See Miranda v. Arizona, 384 U.S. 436, 448-450, 86 S.Ct. 1602, 16
L.Ed.2d 694 (1966).
{¶ 11} The right to remain silent can also be infringed by coercion when
there is a penalty for asserting the right.

In Garrity, the attorney general

investigated police officers for fixing traffic tickets. Although advised of their right
to remain silent, the officers also were told that refusing to answer questions would
lead to the termination of their employment. The officers answered questions and
the state used some of their answers against them in a subsequent criminal case.
The U.S. Supreme Court observed that “[t]he option to lose their means of

5

28a

SUPREME COURT OF OHIO

livelihood or to pay the penalty of self-incrimination is the antithesis of free choice
to speak out or to remain silent.” Garrity, 385 U.S. at 497, 87 S.Ct. 616, 17 L.Ed.2d
562. The court thus held that the confessions were not voluntary but coerced and
that the Fourteenth Amendment prohibited the use of the statements in subsequent
criminal proceedings. Id. at 497-498, 500.
{¶ 12} Unlike the officers in Garrity, Gideon is not a public employee. He
was a medical doctor in private practice. As a practicing physician, he was subject
to licensure by the state medical board. See R.C. 4731.17(B) (state medical board
shall issue licenses to practice medicine). Gideon’s medical license constitutes a
liberty and property interest subject to due-process protections. Watts v. Burkhart,
854 F.2d 839, 842 (6th Cir.1988) (“the freedom to pursue a career is a protected
liberty interest, and * * * state regulation of occupations through a licensing process
gives rise to protected property interests”); see also Flynn v. State Med. Bd., 2016Ohio-5903, 62 N.E.3d 212, ¶ 45 (10th Dist.).
{¶ 13} The medical board has disciplinary authority over medical doctors
and may “limit, revoke, or suspend a license or certificate to practice or certificate
to recommend, refuse to issue a license or certificate, refuse to renew a license or
certificate, refuse to reinstate a license or certificate, or reprimand or place on
probation the holder of a license or certificate * * *.” R.C. 4731.22(B). Among
the reasons listed for exercising the authority to impose such sanctions is the
“[f]ailure to cooperate in an investigation” and the “failure to answer truthfully a
question presented by the board in an investigative interview * * *.”

R.C.

4731.22(B)(34).
{¶ 14} The state’s threat to impose a legal penalty for the failure to give
truthful responses in a state-medical-board investigation is coercive. This threat
puts a medical doctor in the position of having to choose between two rights: the
property right in the medical license or the privilege against self-incrimination. See
Spevack v. Klein, 385 U.S. 511, 512, 87 S.Ct. 625, 17 L.Ed.2d 574 (1967) (private-

6

29a

January Term, 2020

practice lawyer could not be disbarred for refusing to testify at a judicial inquiry
into professional misconduct).
{¶ 15} A different approach is required when, as here, the person under
investigation has not been “expressly confronted * * * with the inescapable choice
of either making an incriminatory statement or being fired,” State v. Graham, 136
Ohio St.3d 125, 2013-Ohio-2114, 991 N.E.2d 1116, ¶ 23. When incriminating
statements are not coerced by the direct threat of job termination, we apply an
“objectively reasonable” “subjective belief” test. Id. Under that test, statements
are compelled by threat of discharge if (1) a person subjectively believed that
asserting the privilege would lead to discharge and (2) that belief was objectively
reasonable under the circumstances. Id.
{¶ 16} Applying the Graham test, the trial court found that while Gideon
testified that he subjectively believed that he would “be penalized” with the loss of
his medical license if he did not answer questions posed by the medical-board
investigator, his belief was not objectively reasonable.
{¶ 17} In Graham, we explained that the objective reasonableness of a
defendant’s belief that disciplinary action will result unless the defendant
cooperates requires a showing of “some demonstrable coercive action by the state
beyond ‘[t]he general directive to cooperate.’ ” (Brackets sic.) Graham at ¶ 23,
quoting United States v. Vangates, 287 F.3d 1315, 1324 (11th Cir.2002). We
further explained that “ ‘ordinary job pressures, such as the possibility of discipline
or discharge for insubordination, are not sufficient to support an objectively
reasonable expectation of discharge.’ ” Id., quoting People v. Sapp, 934 P.2d 1367,
1372 (Colo.1997).
{¶ 18} Gideon did not establish through evidence that coercive action by
the medical-board investigator had occurred. The trial court found no evidence that
the medical-board investigator informed Gideon that “he must waive his rights
against self-incrimination or subject himself to discharge or revocation of his

7

30a

SUPREME COURT OF OHIO

license.” And neither Gideon nor the investigator mentioned during the interview
anything that suggested Gideon could lose his medical license if he refused to
comply with the investigator’s questioning.
{¶ 19} Besides the lack of evidence showing that Gideon had an objectively
reasonable basis for believing that he could lose his medical license, the trial court
correctly found that R.C. 4731.22(B), which requires a doctor’s cooperation in an
investigation, does not subject that doctor “to an automatic suspension or
revocation” of a license should the doctor exercise the right to remain silent.
Although that section speaks in mandatory terms about discipline for certain
violations (the board “shall” impose one of the listed sanctions), discipline is not
automatic. It requires the affirmative vote of “not fewer than six” medical-board
members to impose discipline for one of the reasons listed in R.C. 4731.22(B). And
even when the medical board determines that a doctor has committed a violation,
revocation of a medical license is not a required sanction—it is one of several
sanctions available to the board. See R.C. 4731.22(B). In Gideon’s case, there was
no direct threat of discipline for failure to cooperate; he faced only the possibility
of discipline.
{¶ 20} The Third District disagreed: “the trial court did not capture the
concept of [R.C. 4731.22] and, more importantly, failed to consider the totality of
the circumstances surrounding Gideon’s interview * * *.” (Emphasis sic.) 2019Ohio-2482, 130 N.E.3d 357, at ¶ 31.
{¶ 21} Yet the trial court did consider the circumstances surrounding the
interview. In its findings of fact, the trial court observed that Gideon sounded
“eager to speak” with the investigator despite having no notice of the investigator’s
visit. Gideon declined the investigator’s offer to reschedule the interview. Because
the interview occurred in Gideon’s office, the investigator told Gideon that he
would pause the interview so that Gideon could see waiting patients. The trial court
found that Gideon “took the lead initially in the interview and described his

8

31a

January Term, 2020

techniques with his patients prior to any substantive questions being posed by the
investigator.” Although Gideon testified during the suppression hearing that the
surprise nature of the interview denied him the ability to refresh his memory of the
specific patients, the trial court determined that Gideon “was able to give a very
detailed account of the treatments provided” and that only 18 minutes into the
interview, Gideon “admitted to touching certain areas on the patients and
succumbing to temptation.”
{¶ 22} Appellate review of a suppression ruling involves a mixed question
of law and fact. State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio-5372, 797
N.E.2d 71, ¶ 8. “An appellate court must accept the trial court’s findings of fact if
they are supported by competent, credible evidence.” State v. Hawkins, 158 Ohio
St.3d 94, 2019-Ohio-4210, 140 N.E.3d 577, ¶ 16. “[T]he appellate court must then
independently determine, without deference to the conclusion of the trial court,
whether the facts satisfy the applicable legal standard.” Burnside at ¶ 8, citing State
v. McNamara, 124 Ohio App.3d 706, 707 N.E.2d 539 (4th Dist.1997).
{¶ 23} The court of appeals did not dispute the trial court’s factual findings.
It believed, however, that the investigator acted as a “straw man” for the state.
2019-Ohio-2482, 130 N.E.3d 357, at ¶ 42. While the board may share with lawenforcement agencies any information it receives in an investigation, see R.C.
4731.22(F)(5), cooperation with law-enforcement officials does not necessarily
convert a medical-board investigation into a law-enforcement mission. See State
v. Jackson, 154 Ohio St. 3d 542, 2018-Ohio-2169, 116 N.E.3d 1240, ¶ 21, citing
Ohio v. Clark, 576 U.S. 237, 249, 135 S.Ct. 2173, 192 L.Ed.2d 306 (2015). The
investigator admitted that he agreed to share information with the police, but that
does not mean that he acted for the primary purpose of furthering a criminal
prosecution by the state. The investigator interviewed Gideon for the primary
purpose of determining whether Gideon was subject to disciplinary action by the
medical board for engaging in the misconduct alleged by his patients.

9

32a

SUPREME COURT OF OHIO

{¶ 24} We conclude that Gideon’s medical license is a property right and
that the threatened loss of the license is a form of coercion that can compromise the
United States Constitution’s Fifth Amendment privilege against self-incrimination.
That said, in order for coercion to be sufficient to warrant the suppression of
statements Gideon made during a medical-board investigative interview, his belief
that he would lose his license if he failed to participate in the medical-board
interview and answer questions truthfully must be both subjectively believed and
objectively reasonable. In this case, competent, credible evidence supported the
trial court’s factual finding that Gideon’s belief that a refusal to answer truthfully
questions posed by the medical-board investigator could lead to the loss of his
medical license was not objectively reasonable.
Duty to Adjudicate Assignments of Error
{¶ 25} In his second cross-proposition of law, Gideon claims that the court
of appeals erred by finding that his assignment of error relating to the sufficiency
of the evidence on one count of sexual imposition was moot. He argues that the
appellate court’s remand on the suppression issue did not moot this assignment of
error. We agree.
{¶ 26} App.R. 12(A)(1)(c) states that “[u]nless an assignment of error is
made moot by a ruling on another assignment of error,” a court of appeals shall
“decide each assignment of error and give reasons in writing for its decision.” An
assignment of error is moot when it cannot have “ ‘any practical legal effect upon
a then-existing controversy.’ ” Culver v. Warren, 84 Ohio App. 373, 393, 83
N.E.2d 82 (7th Dist.1948), quoting Ex parte Steele, 162 F. 694, 701
(N.D.Ala.1908). Put differently, an assignment of error is moot when an appellant
presents issues that are no longer live as a result of some other decision rendered
by the appellate court.
{¶ 27} An assignment of error going to the sufficiency of the evidence
supporting a criminal count is always potentially dispositive of that count. While

10

33a

January Term, 2020

a reversal based on weight of the evidence does not preclude a retrial, a reversal
based on insufficient evidence leads to an acquittal that bars a retrial. See State v.
Thompkins, 78 Ohio St.3d 380, 387, 678 N.E.2d 541 (1997), citing Tibbs v. Florida,
457 U.S. 31, 47, 102 S.Ct. 2211, 72 L.Ed.2d 652 (1982). “Because ‘the state is not
entitled to retry a criminal defendant after reversal for trial court error if the state
failed in the first instance to present sufficient evidence * * * a defendant’s assigned
error that the conviction is based on insufficient evidence is not moot under these
circumstances.’ ” (Ellipsis added in Mathis.) State v. Mathis, 6th Dist. Lucas No.
L-18-1192, 2020-Ohio-3068, ¶ 78, quoting State v. Vanni, 182 Ohio App.3d 505,
2009-Ohio-2295, 913 N.E.2d 985, ¶ 15 (9th Dist.); see also State v. Croskey, 8th
Dist. Cuyahoga No. 107772, 2019-Ohio-2444, ¶ 9 (errors which could result in an
acquittal must be separately addressed).
{¶ 28} In State v. Brewer, 113 Ohio St.3d 375, 2007-Ohio-2079, 865
N.E.2d 900, we determined that the court of appeals erred by refusing to consider
an assignment of error challenging the sufficiency of the evidence after it had
determined trial error warranted reversal of the defendant’s conviction. A jury had
found Brewer guilty of gross sexual imposition. On direct appeal, he raised nine
assignments of error, including that hearsay testimony was improperly allowed by
the court and that the state failed to offer sufficient evidence. State v. Brewer, 8th
Dist. Cuyahoga No. 87701, 2006-Ohio-6029, ¶ 1. The court of appeals determined
that the trial court erred by allowing hearsay testimony into evidence and ordered a
new trial. Id. at ¶ 13. That finding led it to conclude that the remaining assignments
of error were moot. Id. We summarily reversed that decision: “[t]he judgment of
the court of appeals holding that the assignment of error in which appellant
challenged the sufficiency of the evidence was moot is reversed, and the cause is
remanded to the court of appeals for consideration of that assignment of error.”
Brewer, 113 Ohio St.3d 375, 2007-Ohio-2079, 865 N.E.2d 900, at ¶ 2.

11

34a

SUPREME COURT OF OHIO

{¶ 29} When a conviction is based on evidence that does not establish a
defendant’s guilt beyond a reasonable doubt, the court of appeals must vacate the
conviction and double-jeopardy protection bars the defendant’s retrial for the same
offense. An assignment of error raising the sufficiency of the evidence is thus
potentially dispositive of a particular count and cannot be moot. When evaluating
an assignment of error challenging the sufficiency of the evidence, a reviewing
court must consider all evidence admitted at trial, including the improperly
admitted evidence that was the source of the reversal for trial error. See State v.
Brewer, 121 Ohio St.3d 202, 2009-Ohio-593, 903 N.E.2d 284, ¶ 24-26. The court
of appeals erred by finding that Gideon’s assignment of error relating to the
sufficiency-of-the-evidence claim was moot under App.R. 12(A)(1)(c).
Conclusion
{¶ 30} For the reasons stated above, we reverse the judgment of the Third
District Court of Appeals. We also remand to that court to consider Gideon’s
assignment of error relating to the sufficiency of the evidence.
Judgment reversed
and cause remanded in part.
O’CONNOR, C.J., and KENNEDY, FRENCH, FISCHER, and DEWINE, JJ.,
concur.
DONNELLY, J., dissents, with an opinion.
_________________
DONNELLY, J., dissenting.
{¶ 31} The majority opinion states that the medical board can “ ‘limit,
revoke, or suspend’ ” a license to practice medicine if the licensee fails to
“ ‘cooperate in an investigation’ ” or “ ‘answer truthfully a question presented by
the board in an investigative interview.’ ” Majority opinion at ¶ 13, quoting R.C.
4731.22(B). The majority opinion concludes that appellee and cross-appellant,
James Gideon, subjectively believed that he could lose his license if he failed to

12

35a

January Term, 2020

cooperate or to answer questions truthfully. I agree. See R.C. 4731.22(B)(34).
Based on the language of R.C. 4731.22(B), Gideon’s subjective belief that he could
lose his license was well-founded. But the majority opinion further concludes that
Gideon’s subjective belief was not objectively reasonable because he did not
demonstrate “ ‘coercive action by the state beyond “[t]he general directive to
cooperate.” ’ (Brackets sic.) [State v. Graham, 136 Ohio St.3d 125, 2013-Ohio2114, 991 N.E.2d 1116,] ¶ 23, quoting United States v. Vangates, 287 F.3d 1315,
1324 (11th Cir.2002).” Majority opinion at ¶ 17. I disagree.
{¶ 32} The majority concludes that the “investigator interviewed Gideon
for the primary purpose of determining whether Gideon was subject to disciplinary
action by the medical board for engaging in the misconduct alleged by his patients,”
majority opinion at ¶ 23. The well-written and unanimous opinion of the court of
appeals thoroughly explicates why the majority’s characterization of the
investigator’s interview of Gideon is untenable:
The evidence in the record reflects that the circumstances
surrounding the administrative investigation at issue in this case
show some demonstrable, coercive action by the state beyond the
general directive to cooperate. Indeed, the combination of Gideon’s
duty to cooperate under R.C. 4731.22(B)(34) and Investigator
Yoakam’s process in this case exceeded an ordinary job pressure to
cooperate.

As we have noted, R.C. 4731.22(B)(34) requires

licensees to cooperate with investigations of the board.[1 (originally fn.8)]
1. The following language appears as footnote 8 in the court of appeals’ opinion:
It appears that the State contends that R.C. 4731.22(B)(34)’s duty to
cooperate requires only that a subject answer truthfully questions posed by an
investigator of the board during an interview. Compare United States v.
Goodpaster, 65 F.Supp.3d 1016, 1029 (D.Or.2014) (noting that “[a]n order to
‘cooperate’ demands more of the reasonable employee than an order merely to be

13

36a

SUPREME COURT OF OHIO

Compare [United States v. Goodpaster, 65 F.Supp.3d 1016, 1029
(D.Or.2014)] (noting that “Goodpaster was subject to a regulation
* * * requiring that he ‘cooperate with all audits, reviews, and
investigations conducted by the Office of Inspector General’ ”),
quoting 39 C.F.R. 230.3(a). R.C. 4731.22(B) puts licensees on
notice that their failure to cooperate, amongst other reasons, will
penalize their license (by a vote of no fewer than six members of the
board). Compare id. (“The same regulation provides that ‘failing to
cooperate [* * *] may be grounds for disciplinary or other legal
action.’ ”), quoting 39 C.F.R. 230.3(a).
Further, in addition to R.C. 4731.22(B)(34)‘s directive to
cooperate with the board’s investigation, the record reflects “some
demonstrable action of the state” supporting Gideon’s subjective
belief. See [People v. ]Sapp[, 934 P.2d 1367, 1372 (Colo.1997)];
[United States v. ]Camacho[, 739 F.Supp 1504, 1518 (S.D.Fla.)]. In
this case, the demonstrable action of the State lies with Investigator
Yoakam’s conduct and his intent underlying that conduct. Compare
Camacho, 739 F.Supp. at 1518-1519 (construing the evidence in the

‘truthful’ ”), citing Minnesota v. Murphy, 465 U.S. 420, 434, 104 S.Ct. 1136, 79
L.Ed.2d 409 (1984) (observing that “Murphy’s probation condition [to be
truthful] proscribed only false statements”). That is, the State argues that “[t]elling
falsehoods * * * is different than remaining silent, and the Fifth Amendment is
not implicated.” (Appellee’s Brief at 6). However, the text of that subsection of
the statute states that a subject must cooperate in investigations of the board. R.C.
4731.22(B)(34) proceeds to provide a non-exhaustive list of ways in which a
subject must cooperate with an investigation of the board—only one of which is
to provide truthful answers to questions presented by the board in an investigative
interview. See In re Hartman, 2 Ohio St.3d 154, 155-156, 443 N.E.2d 516 (1983)
(noting that the word “ ‘including’ implies that that which follows is a partial, not
an exhaustive listing of all that is subsumed within the stated category.
‘Including’ is a word of expansion rather than one of limitation or restriction.”).
(Emphases, brackets, and ellipses sic.)

14

37a

January Term, 2020

record reflecting the “actions of the investigators” to determine
whether there was “demonstrable state conduct” and, thus, whether
the defendants’ beliefs that they would penalized for asserting their
Fifth Amendment rights were objectively reasonable).
At the suppression hearing, Investigator Yoakam testified to
the extent that he collaborated with law enforcement as part of his
investigation—that is, he specifically stated that the investigation of
Gideon “turned into a joint investigation.” (Aug. 22, 2017 Tr. at 4);
(Oct. 13, 2017 Tr. at 7, 20-21).

Indeed, Sergeant Hochstetler

concurred that he and Investigator Yoakam agreed “to cooperate
with each other” during the course of their investigations. (Oct. 13,
2017 Tr. at 51-52). By cooperating, Sergeant Hochstetler clarified
that meant that he and Investigator Yoakam would share
information. Investigator Yoakam elaborated that the Revised Code
permits him to share information obtained as part of his
investigations with law enforcement and that he will share such
information if there is “a shared interest.”

(Id. at 19-20).

Investigator Yoakam further testified that he shared the information
he collected (regarding Gideon) with the Bluffton Police
Department.
Undeniably, R.C. 4731.22(F) provides, in relevant part, the
following:
“(3) In investigating a possible violation of this chapter or
any rule adopted under this chapter, * * * the board may question
witnesses, conduct interviews, administer oaths, order the taking of
depositions, inspect and copy any books, accounts, papers, records,
or documents, issue subpoenas, and compel the attendance of
witnesses and production of books, accounts, papers, records,

15

38a

SUPREME COURT OF OHIO

documents, and testimony, except that a subpoena for patient record
information shall not be issued without consultation with the
attorney general’s office and approval of the secretary and
supervising member of the board.
“* * *
“(4) All * * * investigations * * * of the board shall be
considered civil actions for the purposes of section 2305.252 of the
Revised Code.
“(5) * * *
The board may share any information it receives pursuant to
an investigation * * * with law enforcement agencies, other
licensing boards, and other governmental agencies that are
prosecuting, adjudicating, or investigating alleged violations of
statutes or administrative rules.”
R.C. 4731.22(F)(3)-(5) (Apr. 6, 2017) (current version at R.C.
4731.22(F)(3)-(5) (Mar. 20, 2019)).[2 (originally fn.9)]
Thus, while there is nothing inherently wrong with
Investigator Yoakam and law enforcement’s agreement to share
2. The following language appears as footnote 9 in the court of appeals’ opinion:
R.C. 2305.252 applies to peer-review privilege. See, e.g., Cousino v.
Mercy St. Vincent Med. Ctr., 6th Dist. Lucas, 2018-Ohio-1550, 111 N.E.3d 529,
¶ 15 (“The purpose of this statute is to protect the integrity and confidentiality of
the peer review process so that health care entities have the freedom to
meaningfully review and critique—and thereby improve—the overall quality of
the healthcare services they provide.”). The statute also applies the peer-review
privilege to only the Bureau of Workers’ Compensation (“BWC”); however, the
statute excepts the BWC to “share proceedings and records within the scope of
the peer review committee * * * with law enforcement agencies, licensing boards,
and other governmental agencies that are prosecuting, adjudicating, or
investigating alleged violations of applicable statutes or administrative rules.”
R.C. 2305.252(B).
(Emphasis and ellipsis sic.)

16

39a

January Term, 2020

information, the evidence in the record reveals that Investigator
Yoakam exceeded statutorily permissible collaboration by taking
demonstrable steps to coerce Gideon to provide him an
incriminating, oral and written statement in reliance on Gideon’s
duty to cooperate. In other words, Investigator Yoakam was posing
as a “straw man” to effectuate law enforcement’s criminal
investigation. See State v. Gradisher, 9th Dist. Summit No. 24716,
2009-Ohio-6433, 2009 WL 4647378, ¶ 23 (Belfance, J., dissenting)
(approving the “concern that government agents should not pose as
‘straw men’ in order to effectuate police investigations”).
Specifically, Investigator Yoakam contacted Sergeant Hochstetler
prior to interviewing Gideon, and “discussed that [he] was going to
hold off on the administrative investigation until [law enforcement
determined] that [Investigator Yoakam] could interview [Gideon].”
(Oct. 13, 2017 Tr. at 7-8). Investigator Yoakam’s intention for
sharing his investigative plan with law enforcement was to
“determine how [law enforcement] was going to proceed with the
criminal case” because proving an administrative-sanction case is
easier “from a criminal conviction” as opposed to “through witness
testimony.” (Id. at 15-16). That is, he elaborated that his method is
“what they call a bootstrap on a criminal case that’s where a
physician * * * is criminally charged, and the Board takes action on
that criminal disposition, and the other [is] based on information
gathered in the course of an investigation. Action that’s taken based
on that.” (Id. at 15).
Prior to Investigator Yoakam’s interview of Gideon,
Sergeant Hochstetler told Investigator Yoakam that Gideon “denied
any improprieties during [law enforcement’s] interview” of Gideon.

17

40a

SUPREME COURT OF OHIO

(Oct. 13, 2017 Tr. at 21, 55). And, after discussing Gideon’s denials
to law enforcement with Sergeant Hochstetler, Investigator Yoakam
informed Sergeant Hochstetler that it would not be “appropriate” for
law enforcement to jointly interview Gideon with Investigator
Yoakam. (Id. at 28, 55-56). Specifically, Investigator Yoakam
testified that
“doctor’s [sic] are obligated to cooperate in our investigation. So
[he] did not want that to * * * impede in * * * any of the criminal
proceedings...And [he] didn’t want * * * there to be an issue that the
doctor provided a statement with law enforcement present because
the provider is obligated to cooperate in our investigations.”
(Emphasis added.) (Id. at 29). (See also Oct. 13, 2017 Tr. at 55);
(Defendant’s Ex. 4). In other words, Investigator Yoakam’s method
was to avoid a scenario in which his interview (of Gideon) could not
be used as part of the criminal case because (as indicated by
Investigator Yoakam) the lack of a criminal conviction would make
his administrative-sanction case more cumbersome.

Compare

Gradisher at ¶ 23 (Belfance, J., dissenting) (expressing concern that
“government overreaching could easily occur by pushing off
criminal investigations to state agents so as to bypass protection
against the abridgement of an individual’s Fifth Amendment
rights”); Camacho, 739 F.Supp. at 1519 (noting that the
investigator’s action in purposely omitting “his preamble regarding
voluntariness and compulsion * * * in order to avoid flagging the
issue of voluntariness” “speaks louder” than any belief that the
statements were voluntary and concluding that “the investigators’
central aim was to take a statement first and litigate its admissibility
later”).

18

41a

January Term, 2020

Moreover, based on our review of the record, Investigator
Yoakam’s intent for the investigation reflects the demonstrable state
action necessary to support Gideon’s subjective belief that his
medical license would be penalized if he failed to cooperate with
Investigator Yoakam’s investigation.

Specifically, Investigator

Yoakam’s interview of Gideon reflects his intent to assist law
enforcement in obtaining a criminal conviction of Gideon for
purposes of influencing the outcome the administrative-sanction
case against Gideon.
Even though he is not a law enforcement officer, Investigator
Yoakam testified that he had law enforcement training and is
familiar with the elements of offenses under the Revised Code,
including sexual imposition.

Keeping his training in mind,

Investigator Yoakam arrived unannounced to Gideon’s medical
office to conduct his interview to catch him “off guard” “to get the
truth out of [him].” (Oct. 13, 2017 Tr. at 5, 32-33). Despite Gideon
having patient appointments at the time of the visit, Investigator
Yoakam did not advise Gideon that he did not have to speak with
him that day or otherwise offer to reschedule—he merely asked
Gideon “if he would have a few minutes to chat with” him. (Id. at
5). (See also State’s Ex. A). In other words, Investigator Yoakam
did nothing to dissuade Gideon’s belief that he was statutorily
obligated to cooperate with his investigation, which included
consenting to Investigator Yoakam’s request to “chat.” Compare
Camacho at 1511 (“At no time during the interview or after did
either Sergeant Green or Assistant State Attorney DiGregory make
any effort to dissuade Sinclair of his view that he was compelled to
give a statement or answer his question.”).

19

42a

SUPREME COURT OF OHIO

(Emphases and ellipses sic; brackets added in citations and footnote numbers;
remaining brackets sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 38-45.
{¶ 33} This analysis amply supports a conclusion that Yoakam’s
investigation was improperly coercive under Garrity v. New Jersey, 385 U.S. 493,
87 S.Ct. 616, 17 L.Ed.2d 562 (1967). Although there is nothing wrong with
Yoakam and the Bluffton Police Department sharing information, their approach
suggests that Yoakam was strategically attempting to elicit information to benefit
the Bluffton Police Department investigation.

This is tantamount to

collaborating—not merely sharing information that was collected independently.
If Yoakam had appeared at Gideon’s office with an officer from the Bluffton Police
Department, the coercive nature of the investigation would have been manifest. It
is no less so here. Yoakam was all but deputized to act for the benefit of the
Bluffton Police Department. Moreover, the court of appeals examined another way
in which the interview demonstrates that Gideon had an objectively reasonable
belief that his medical license was at risk if he did not cooperate:
Investigator Yoakam advised Gideon at multiple points to “to go
back to [law enforcement] and change his statement” to avoid facing
possible falsification charges. (Oct. 13, 2017 Tr. at 22). Investigator
Yoakam’s insistence that Gideon return to law enforcement to
change his statement is also evidence supporting Gideon’s belief
that a refusal to give a statement will be met with a licensure penalty.
That is, Investigator Yoakam’s insistence that Gideon provide law
enforcement with a statement reflects an intent to coerce Gideon to
cooperate with the investigation. Indeed, (as raised during crossexamination) if Investigator Yoakam was “just concerned about
[the] medical investigation there would be no need to tell [Gideon]

20

43a

January Term, 2020

to go back to the police department and change his statement * * *.”
(Id. at 22).
(Brackets and ellipsis sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 48.
{¶ 34} The court of appeals also had appropriate concern that Yoakam’s
conduct after the interview reflects his understanding that he and the Bluffton
Police were engaged in a joint investigation, not a mere sharing of information:
At the conclusion of the interview, instead of reporting back
to the board, Investigator Yoakam immediately went to the Bluffton
Police Department to report Gideon’s confessions to law
enforcement. (See Defendant’s Ex. 2). Despite his employment
responsibilities with the State Medical Board, Investigator Yoakam
chose to immediately share Gideon’s confessions with law
enforcement “because the doctor had [ ] an interview with [law
enforcement] where he denied any impropriety so [he] wanted to tell
[law enforcement] what happened during [his] interview.” (Oct. 13,
2017 Tr. at 26-27). Moreover, Investigator Yoakam agreed that he
“wanted to assist [law enforcement] in that criminal investigation by
providing [law enforcement] with statements made by Dr. Gideon
during an interview that same day * * *[.]” (Id. at 27).
(Emphasis, brackets, and ellipsis sic.) 2019-Ohio-2482, 130 N.E.3d 357, at ¶ 50.
{¶ 35} I agree with the court of appeals’ conclusion that
based on the facts and circumstances presented by this case,
Investigator Yoakam’s actions created an impression that Gideon’s
refusal to cooperate with his investigation would result in the type

21

44a

SUPREME COURT OF OHIO

of penalty prohibited under Garrity.

See Camacho at 1520

(concluding “that the actions of the State were directly implicated in
creating [the] belief” that the defendants’ subjective belief “that
failure to answer would result in termination”). Therefore, Gideon’s
belief that his medical license would be penalized if he did not
cooperate with Investigator Yoakam’s investigation was objectively
reasonable. See id. Thus, Gideon’s statements were not voluntary
within the meaning of Garrity. Accord Graham, 136 Ohio St.3d
125, 2013-Ohio-2114, 991 N.E.2d 1116, at ¶ 30 (“Statements
extracted under these circumstances cannot be considered voluntary
within the meaning of Garrity.”)
2019-Ohio-2482, 130 N.E.3d 357, at ¶ 51.
{¶ 36} The circumstances of Yoakum’s interview demonstrate that it was
coercive and therefore that Gideon’s subjective belief that he could lose his medical
license if he did not answer was objectively reasonable. Accordingly, I conclude
that the trial court erred when it denied Gideon’s motion to suppress statements he
made to Yoakam. I would affirm the well-reasoned decision of the court of appeals.
I dissent.
_________________
Nicole M. Smith, Lima Assistant City Prosecuting Attorney, and Anthony
M. DiPietro, Deputy Law Director, for appellant and cross-appellee.
Dennis C. Belli, for appellee and cross-appellant.
_________________

22

45a

[Cite as State v. Gideon, 2019-Ohio-2482.]

IN THE COURT OF APPEALS OF OHIO
THIRD APPELLATE DISTRICT
ALLEN COUNTY

STATE OF OHIO,
PLAINTIFF-APPELLEE,

CASE NO. 1-18-27

v.
JAMES A. GIDEON,

OPINION

DEFENDANT-APPELLANT.

STATE OF OHIO,
PLAINTIFF-APPELLEE,

CASE NO. 1-18-28

v.
JAMES A. GIDEON,

OPINION

DEFENDANT-APPELLANT.

STATE OF OHIO,
PLAINTIFF-APPELLEE,

CASE NO. 1-18-29

v.
JAMES A. GIDEON,

OPINION

DEFENDANT-APPELLANT.

46a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Appeals from Lima Municipal Court
Trial Court Nos. 17CRB01386, 17CRB01387, and 17CRB01385
Judgments Reversed and Causes Remanded
Date of Decision: June 24, 2019

APPEARANCES:

Dennis C. Belli for Appellant
Anthony L. Geiger for Appellee

ZIMMERMAN, P.J.
{¶1} Defendant-appellant, James A. Gideon (“Gideon”), appeals the May 11,
2018 judgment entries of sentence of the Lima Municipal Court. For the reasons
that follow, we reverse.
{¶2} This case stems from an investigation of Gideon for allegedly
inappropriately touching patients in his capacity as a licensed physician. As part of
the investigation, Sergeant Tyler Hochstetler (“Sergeant Hochstetler”) of the
Bluffton Police Department criminally investigated the patient complaints, while
Investigator Chad Yoakam (“Investigator Yoakam”) of the State Medical Board
pursued an administrative investigation for possible violations of the statutes and
rules governing the practice of medicine.
-2-

47a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶3} Sergeant Hochstetler and Investigator Yoakam agreed “to cooperate
with each other” by trading information during the course of their investigations.
(Oct. 13, 2017 Tr. at 51-52). According to Investigator Yoakam, it is advantageous
for state investigators to cooperate with law enforcement under “what they call a
bootstrap on a criminal case” because proving an administrative-sanction case is
easier “from a criminal conviction” as opposed to “through witness testimony.” (Id.
at 15-16). Thus, Investigator Yoakam met with Sergeant Hochstetler “to determine
how [he] was going to proceed with the criminal case.” (Id. at 15). After learning
from Sergeant Hochstetler that Gideon denied the patients’ allegations to Sergeant
Hochstetler, Investigator Yoakam informed Sergeant Hochstetler that he was going
to interview Gideon himself. Importantly, Investigator Yoakam warned Sergeant
Hochstetler against participating in his interview with Gideon—because Gideon
was statutorily obligated to cooperate with his investigation—so that any confession
could be used in a criminal proceeding against Gideon. (See Oct. 13, 2017 Tr. at
28-29, 55-56); (Defendant’s Ex. 4).
{¶4} In accordance with that agreement, Investigator Yoakam arrived
unannounced at Gideon’s medical office and asked Gideon “if he would have a few
minutes to chat with” him to which Gideon—who was aware of his duty to
cooperate with Investigator Yoakam’s investigation—responded that he did. (Aug.
22, 2017 Tr. at 5). Commensurate with his duty to cooperate and provide truthful

-3-

48a

Case Nos. 1-18-27, 1-18-28, 1-18-29

answers to Investigator Yoakam’s questions, Gideon provided Investigator Yoakam
with an oral and written statement. Thereafter, Investigator Yoakam immediately
shared the information from his interview of Gideon with law enforcement “because
the doctor had [] an interview with [law enforcement] where he denied any
impropriety so I wanted to tell [law enforcement] what happened during [his]
interview.” (Oct. 13, 2017 Tr. at 26-27).
{¶5} On May 26, 2017, three complaints were filed in the Lima Municipal
Court, each charging Gideon with sexual imposition in violation of R.C.
2907.06(A)(1), third-degree misdemeanors. (Case No. 17CRB01385, Doc. No. 3);
(Case No. 17CRB01386, Doc. No. 3); (Case No. 17CRB01387, Doc. No. 3). The
complaints were assigned case numbers 17CRB01385, 17CRB01386, and
17CRB01387, respectively. (Id.); (Id.); (Id.). Gideon appeared for arraignment and
entered pleas of not guilty on June 6, 2017. (Case No. 17CRB01385, Doc. No. 7);
(Case No. 17CRB01386, Doc. No. 7); (Case No. 17CRB01387, Doc. No. 7).
{¶6} On July 5, 2017, Gideon filed a motion to suppress evidence. (Case
No. 17CRB01385, Doc. No. 10); (Case No. 17CRB01386, Doc. No. 12); (Case No.
17CRB01387, Doc. No. 11). Specifically, Gideon requested that “his written and
recorded statements given during an interrogation conducted by [Investigator
Yoakam]” be suppressed because “the statements were involuntary and elicited in
violation of [Gideon’s] right to Due Process and the Privilege against Self-

-4-

49a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Incrimination guaranteed under the Fifth and Fourteenth Amendments to the United
States Constitution and Article I, Section 10 of the Ohio Constitution.” (Id.); (Id.);
(Id.). After the conclusion of suppression hearings on August 22, 2017 and October
13, 2017, the trial court determined that Gideon “made voluntary statements during
a noncustodial interview” and denied the motion to suppress his statements. (Case
No. 17CRB01385, Doc. Nos. 12, 14, 17); (Case No. 17CRB01386, Doc. Nos. 14,
17); (Case No. 17CRB01387, Doc. No. 12, 14). (See also Case No. 17CRB01385,
Doc. Nos. 14, 15, 16).
{¶7} On February 6, 2018, the State filed a motion to join case numbers
17CRB01385, 17CRB01386, 17CRB01387. (Case No. 17CRB01385, Doc. No.
18).1 Gideon filed a memorandum in opposition to the State’s joinder request on
February 23, 2018. (Case No. 17CRB01385, Doc. No. 20). The trial court granted
the State’s motion on April 9, 2018 and joined all of the cases for trial. (Case No.
17CRB01385, Doc. No. 27A); (Case No. 17CRB01386, Doc. No. 18A); (Case No.
17CRB01387, Doc. No. 15A). (See Case No. 17CRB01385, Doc. Nos. 21, 25, 27).
(See also Case No. 17CRB01385, Doc. No. 22).
{¶8} The cases proceeded to a jury trial on April 18-20, 2018. (Apr. 18, 2018
Tr., Vol. I, at 1); (Apr. 19, 2018 Tr., Vol. II, at 1); (Apr. 20, 2018 Tr., Vol. III, at 1).

1

The State’s February 6, 2018 motion requesting joinder also requests the joinder of case numbers
17CRB01711, 17CRB01712, 17CRB01713, and 17CRB01765; however, those cases are not before this
court.

-5-

50a

Case Nos. 1-18-27, 1-18-28, 1-18-29

The jury found Gideon guilty of the sexual-imposition charge in case number
17CRB01385, 17CRB01386, and 17CRB01387, respectively.

(Case No.

17CRB01385, Doc. No. 42); (Case No. 17CRB01386, Doc. No. 22); (Case No.
17CRB01387, Doc. No. 19).
{¶9} On May 11, 2018, the trial court sentenced Gideon to 60 days in jail in
case number 17CRB01385, 60 days in jail in case number 17CRB01386, and 60
days in jail in case number 17CRB01387. (Case No. 17CRB01385, Doc. No. 45);
(Case No. 17CRB01386, Doc. No. 25); (Case No. 17CRB01387, Doc. No. 22). The
jail terms imposed were ordered to be served consecutively for an aggregate
sentence of 180 days in jail. (Id.); (Id.); (Id.). The trial court also classified Gideon
as a Tier I sex offender. (Id.); (Id.); (Id.).
{¶10} Gideon filed his notice of appeal on May 11, 2018, and raises four
assignments of error for our review. (Case No. 17CRB01385, Doc. No. 46); (Case
No. 17CRB01386, Doc. No. 26); (Case No. 17CRB01387, Doc. No. 23). Because
it is dispositive, we address only Gideon’s first assignment of error.
Assignment of Error No. I
The Denial of Defendant-Appellant’s Motion to Suppress His
Oral and Written Statements to the Medical Board Investigator
and the Admission of Those Statements in the State’s Case-InChief Violated His Rights Under the Fifth and Fourteenth
Amendments to the United States Constitution and Article I,
Section 10 of the Ohio Constitution. (Apx.A-7)

-6-

51a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶11} In his first assignment of error, Gideon argues that the trial court erred
by denying his motion to suppress oral and written statements that he made to
Investigator Yoakam as evidence. In particular, Gideon contends that the trial court
erred by concluding that his belief that his statements were coerced was objectively
unreasonable under the circumstances.

In making that determination, Gideon

argues that the trial court “failed to consider the degree to which [Investigator]
Yoakam’s disciplinary investigation was intertwined with the police department’s
criminal investigation.” (Appellant’s Brief at 8).2
Standard of Review
{¶12} A review of the denial of a motion to suppress involves mixed
questions of law and fact. State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio-5372,
¶ 8. At a suppression hearing, the trial court assumes the role of trier of fact and, as
such, is in the best position to evaluate the evidence and the credibility of witnesses.
Id. See also State v. Carter, 72 Ohio St.3d 545, 552 (1995). When reviewing a
ruling on a motion to suppress, “an appellate court must accept the trial court’s
findings of fact if they are supported by competent, credible evidence.” Burnside at
¶ 8, citing State v. Fanning, 1 Ohio St.3d 19 (1982). With respect to the trial court’s

2

Gideon also argues that the trial court’s admission of his involuntary confessions into evidence at trial “was
not harmless beyond a reasonable doubt.” (Appellant’s Brief at 14, citing Arizona v. Fulimante, 499 U.S.
279, 295, 111 S.Ct. 1246 (1991)). In other words, Gideon argues that the admission of his involuntary
confessions into evidence at trial amounted to structural error. However, based on our conclusion that
Gideon’s statements should have been suppressed under the Fifth Amendment’s privilege against self
incrimination, we need not address Gideon’s structural-error argument.

-7-

52a

Case Nos. 1-18-27, 1-18-28, 1-18-29

conclusions of law, however, our standard of review is de novo, and we must
independently determine whether the facts satisfy the applicable legal standard. Id.,
citing State v. McNamara, 124 Ohio App.3d 706 (4th Dist.1997).
Due Process Voluntariness
{¶13} First, we will address Gideon’s argument that his pre-trial statements
“were procured in violation of his right to due process * * *.” (Appellant’s Brief at
5). Separate from the consideration of whether a defendant’s statements should be
suppressed under the Fifth Amendment’s self-incrimination privilege, is the
consideration of whether the defendant’s statements were voluntary. See, e.g.,
Oregon v. Elstad, 470 U.S. 298, 304, 105 S.Ct. 1285 (1985) (“Prior to Miranda, the
admissibility of an accused’s in-custody statements was judged solely by whether
they were ‘voluntary’ within the meaning of the Due Process Clause.”); State v.
Jenkins, 15 Ohio St.3d 164, 231 (1984) (noting that “due process provisions of the
federal Constitution dictate that the state must meet by a preponderance of the
evidence its burden of proving that any inculpatory statement was made
voluntarily”); State v. Tussing, 3d Dist. Logan No. 8-10-11, 2011-Ohio-1727, ¶ 32
(stating that “the Due Process Clause requires an inquiry regarding the voluntariness
of a defendant’s confession, which is a separate inquiry from the considerations
regarding whether a defendant is subject to a custodial interrogation”), citing State
v. Petitjean, 140 Ohio App.3d 517, 526 (2d Dist.2000), citing Dickerson v. United

-8-

53a

Case Nos. 1-18-27, 1-18-28, 1-18-29

States, 530 U.S. 428, 434, 120 S.Ct. 2326 (2000); State v. Scholl, 10th Dist. Franklin
No. 12AP-309, 2012-Ohio-6233, ¶ 7 (“The voluntariness of a confession presents
‘an issue analytically separate from those issues surrounding custodial
interrogations and Miranda warnings.’”), quoting State v. Walker, 10th Dist.
Franklin No. 04AP-1107, 2005-Ohio-3540, ¶ 24, citing State v. Kelly, 2d Dist.
Greene No. 2004-CA-20, 2005-Ohio-305, ¶ 10.

See also United States v.

Goodpaster, 65 F.Supp.3d 1016, 1021-1022 (D.Or.2014). “Using an involuntary
statement against a defendant in a criminal trial is a denial of due process of law.”
State v. Carse, 10th Dist. Franklin No. 09AP-932, 2010-Ohio-4513, ¶ 23, citing
Mincey v. Arizona, 437 U.S. 385, 398, 98 S.Ct. 2408 (1978). Statements are
considered involuntary when, under the totality of the circumstances, the
“defendant’s will was overborne.” Schneckloth v. Bustamonte, 412 U.S. 218, 226,
93 S.Ct. 2041 (1973). Some of the circumstances that are commonly considered
include the defendant’s age, education, intelligence, and knowledge of his rights;
the duration and nature of detention and questioning; and whether physical
punishment was used or threatened. Id.
{¶14} Although Gideon asserts that he is challenging the admissibility of his
pre-trial statements under the Due Process Clause, he failed to make any argument
in support of that contention. “[A] defendant has the burden of affirmatively
demonstrating the error of the trial court on appeal.” State v. Stelzer, 9th Dist.

-9-

54a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Summit No. 23174, 2006-Ohio-6912, ¶ 7, citing State v. Cook, 9th Dist. Summit
No. 20675, 2002-Ohio-2646, ¶ 27. “Moreover, ‘[i]f an argument exists that can
support this assignment of error, it is not this court’s duty to root it out.’” Id.,
quoting Cook at ¶ 27. “App.R. 12(A)(2) provides that an appellate court ‘may
disregard an assignment of error presented for review if the party raising it fails to
identify in the record the error on which the assignment of error is based or fails to
argue the assignment separately in the brief, as required under App.R. 16(A).’”
State v. Jackson, 10th Dist. Franklin No. 14AP-670, 2015-Ohio-3322, ¶ 11, quoting
App.R. 12(A)(2). “Additionally, App.R. 16(A)(7) requires that an appellant’s brief
include ‘[a]n argument containing the contentions of the appellant with respect to
each assignment of error presented for review and the reasons in support of the
contentions, with citations to the authorities, statutes, and parts of the record on
which appellant relies.’” Id., quoting App.R. 16(A)(7). Notwithstanding Gideon’s
failure to include an argument regarding how his pre-trial statements were
inadmissible under the Due Process Clause, the voluntariness of his statements are
immaterial to the resolution of his suppression argument because we conclude that
his statements were otherwise per se compelled under the Fifth Amendment to the
United States Constitution.

-10-

55a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Fifth Amendment
{¶15} “‘The Fifth Amendment to the United States Constitution, made
applicable to the states by the Fourteenth Amendment, states that “[n]o person * *
* shall be compelled in any criminal case to be a witness against himself.”’” State
v. Jackson, 154 Ohio St.3d 542, 2018-Ohio-2169, ¶ 14, quoting State v. Graham,
136 Ohio St.3d 125, 2013-Ohio-2114, ¶ 19, quoting the Fifth Amendment to the
U.S. Constitution. 3 See also Ohio Constitution, Article I, Section 10. “It has long
been held that this prohibition not only permits a person to refuse to testify against
himself at a criminal trial in which he is a defendant, but also ‘privileges him not to
answer official questions put to him in any other proceeding, civil or criminal,
formal or informal, where the answers might incriminate him in future criminal
proceedings.’” Minnesota v. Murphy, 465 U.S. 420, 426, 104 S.Ct. 1136 (1984),
quoting Lefkowitz v. Turley, 414 U.S. 70, 77, 94 S.Ct. 316 (1973).
{¶16} “The privilege against self-incrimination is generally not selfexecuting; a person ‘ordinarily must assert the privilege rather than answer if he

3

Gideon’s argument necessarily incorporates the procedural safeguards of the Sixth Amendment. See State
v. Jackson, 154 Ohio St.3d 542, 2018-Ohio-2169, ¶ 13. (See also Appellant’s Brief at 13). “‘The Sixth
Amendment, applied to the States through the Fourteenth Amendment, guarantees that “[i]n all criminal
prosecutions, the accused shall * * * have the Assistance of Counsel for his defence.”’” Jackson at ¶ 16,
quoting Kansas v. Ventris, 556 U.S. 586, 590, 129 S.Ct. 1841 (2009). “‘The core of this right has historically
been, and remains today, ‘the opportunity for a defendant to consult with an attorney and to have him
investigate the case and prepare a defense for trial.”’” Id., quoting Ventris at 590, quoting Michigan v. Harvey,
494 U.S. 344, 348, 110 S.Ct. 1176 (1990). However, “‘[t]hat the right extends to having counsel present at
various pretrial “critical” interactions between the defendant and the State, * * * including the deliberate
elicitation by law enforcement officers (and their agents) of statements pertaining to the charge.’” (Emphasis
added.) Id., quoting Ventris at 590.

-11-

56a

Case Nos. 1-18-27, 1-18-28, 1-18-29

desires not to incriminate himself.’” Graham at ¶ 19, quoting Murphy at 429. See
also Murphy at 427 (noting that “[t]his principle has been applied in cases involving
a variety of criminal and noncriminal investigations”). Thus, “[i]f a witness—even
one under a general compulsion to testify—answers a question that both he and the
government should reasonably expect to incriminate him, the Court need ask only
whether the particular disclosure was ‘compelled’ within the meaning of the Fifth
Amendment.” Murphy at 428.
There are well-known exceptions to the requirement of asserting the
privilege: (1) “custodial interrogation”; (2) situations where the
assertion is penalized to an extent that a “‘free choice to remain
silent’” is foreclosed; and (3) situations where parties fail to file tax
returns rather than identifying themselves as gamblers and asserting
the Fifth Amendment privilege.
State v. Schimmel, 2d Dist. Clark No. 2017-CA-23, 2017-Ohio-7747, ¶ 17, quoting
Murphy at 429-430, 434, 439, quoting Garner v. United States, 424 U.S. 648, 661,
96 S.Ct. 1178 (1976). See also Goodpaster, 65 F.Supp.3d at 1022-1023 (“Rather
than ask whether statements were actually compelled, a prophylactic rule asks
whether certain other conditions were met and provides that statements made under
those conditions are deemed per se compelled.), citing Elstad, 470 U.S. at 307. “A
prophylactic rule, therefore, ‘sweeps more broadly than the Fifth Amendment itself’
and may exclude even ‘patently voluntary statements.’”
Goodpaster at 1023, quoting Elstad at 306-307.

-12-

57a

(Emphasis sic.)

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶17} Here, the trial court addressed two of the exceptions to the requirement
of asserting the privilege: the Miranda and the Garrity rules. Miranda v. Arizona,
384 U.S. 436, 86 S.Ct. 1602 (1966); Garrity v. New Jersey, 385 U.S. 493, 87 S.Ct.
616 (1967). Accordingly, we will review the trial court’s application of the Miranda
and Garrity rules to the facts and circumstances presented by this case.
Miranda
{¶18} The first well-known exception under Miranda excludes “‘statements,
whether exculpatory or inculpatory, stemming from custodial interrogation of the
defendant unless [the state] demonstrates the use of procedural safeguards effective
to secure the privilege against self-incrimination.’” (Emphasis added.) Jackson,
154 Ohio St.3d 542, 2018-Ohio-2169, at ¶ 14, quoting Miranda at 444. “The basic
insight of Miranda is that custody contains ‘inherently compelling pressures which
work to undermine the individual’s will to resist and to compel him to speak where
he would not otherwise do so freely.’” Goodpaster at 1023, quoting Miranda at
467. “To offset this coercion, Miranda mandated that certain warnings be given
before a suspect in custody is interrogated.” Id., citing Miranda at 478-479.
“Absent these warnings, * * * a suspect’s statements made during custodial
interrogation * * * may not be used against him * * *.” Id., citing Elstad at 307 and
Miranda at 478-479.

-13-

58a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶19} “The prophylactic rule of Miranda, therefore, substitutes the totalityof-the-circumstances voluntariness inquiry with” a four-prong inquiry: First, was
the suspect in custody? Second, was the suspected being interrogated? Third, was
the custodial interrogation conducted by law enforcement? Fourth, if the first three
inquiries produce an affirmative result, were adequate warnings given? See id.
{¶20} A “custodial interrogation” within the meaning of Miranda “‘means
“questioning initiated by law enforcement after a person has been taken into
custody.”’” (Emphasis added.) Jackson at ¶ 15, quoting State v. Watson, 28 Ohio
St.2d 15 (1971), paragraph five of the syllabus, quoting Miranda at 444, and citing
State v. Bernard, 31 So.3d 1025, 1029 (La.2010) (noting that Miranda applies only
if “the interrogation is conducted by a ‘law enforcement officer’ or someone acting
as their agent”). See also Rhode Island v. Innis, 446 U.S. 291, 300-301, 100 S.Ct.
1682 (1980) (defining “interrogation” as “express questioning or its functional
equivalent”). “When determining whether an individual is in custody for Miranda
purposes, we must consider whether there was a formal arrest or the functional
equivalent of ‘a restraint of an individual’s freedom of movement commensurate
with that of a formal arrest.’” In re M.H., 8th Dist. Cuyahoga No. 105742, 2018Ohio-4848, ¶ 20, quoting State v. Jones, 8th Dist. Cuyahoga No. 83481, 2004-Ohio5205, ¶ 39, citing Miranda at 444. “In considering whether an individual is in
custody for Miranda purposes, “courts must first inquire into the circumstances

-14-

59a

Case Nos. 1-18-27, 1-18-28, 1-18-29

surrounding the questioning and, second, given those circumstances, determine
whether a reasonable person would have felt that he or she was not at liberty to
terminate the interview and leave.’” Id. at ¶ 24, quoting State v. Hoffner, 102 Ohio
St.3d 358, 2004-Ohio-3430, ¶ 27, citing Thompson v. Keohane, 516 U.S. 99, 112,
116 S.Ct. 457 (1995). “In so doing, we examine the totality of the circumstances
and how a reasonable person would have understood the circumstances.” Id. at ¶
20, citing State v. Montague, 8th Dist. Cuyahoga No. 97958, 2012-Ohio-4285, ¶ 8,
citing Berkemer v. McCarty, 468 U.S. 420, 442, 104 S.Ct. 3138 (1984). “Relevant
factors to consider in determining whether a custodial interrogation took place are:
(1) the location of the questioning; (2) duration of the questioning; (3) statements
made during the interview; (4) the presence or absence of physical restraints; and
(5) whether the interviewee was released at the end of the interview.” State v.
Billenstein, 3d Dist. Mercer No. 10-13-10, 2014-Ohio-255, ¶ 44, citing Howes v.
Fields, 565 U.S. 499, 132 S.Ct. 1181 (2012).
{¶21} However, generally, “[t]he Miranda requirements do not apply when
admissions are made to persons who are not law enforcement officers or their
agents, even if an individual’s efforts aid in law enforcement.” 4 In re M.H. at ¶ 19,
citing Jackson at ¶ 15. See also id. at ¶ 21 (“Generally, courts have held that [state

4

A law enforcement officer is defined under R.C. 2901.01(A)(11)(b) as follows: “An officer, agent, or
employee of the state or any of its agencies, instrumentalities, or political subdivisions, upon whom, by
statute, a duty to conserve the peace or to enforce all or certain laws is imposed and the authority to arrest
violators is conferred * * *.”

-15-

60a

Case Nos. 1-18-27, 1-18-28, 1-18-29

investigators—namely, social workers—]do not have a duty to advise suspects of
their Miranda rights because they are private citizens with no power to arrest.”),
citing Jones at ¶ 40, State v. Coonrod, 12th Dist. Fayette No. CA2009-08-013, 2010Ohio-1102, ¶ 9, State v. Thoman, 10th Dist. Franklin No. 04AP-787, 2005-Ohio898, ¶ 7, State v. Dobies, 11th Dist. Lake No. 91-L-123, 1992 WL 387356, *3 (Dec.
18, 1992), and State v. Simpson, 4th Dist. Ross No. 1706, 1992 WL 37793, *4 (Feb.
21, 1992).

Nevertheless, when a state investigator acts as an agent of law

enforcement, that investigator may be required to provide Miranda warnings. Id. at
¶ 22. A state investigator is an agent of law enforcement when he or she acts under
the direction or control of law enforcement. Id., citing State v. Bolen, 27 Ohio St.2d
15, 18 (1971). Whether an individual is acting as an agent of law enforcement
depends on the specific facts and circumstances of each case. Jackson at ¶ 17.
{¶22} In the case before us, the trial court concluded that suppression of
Gideon’s statements was not warranted under Miranda because Gideon was not in
custody. In support of its conclusion that Gideon was not in custody, the trial court
found that (1) the interview with Investigator Yoakam was conducted at Gideon’s
office; (2) Gideon was freely accessible to his staff; (3) Gideon repeatedly left his
office to see patients; (4) Gideon was not physically threatened, intimidated, or
restrained; and (5) Investigator Yoakam did not dominate the interview. The record
reveals that the trial court’s findings are supported by competent, credible evidence.

-16-

61a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Accordingly, although there may a tenable argument that Investigator Yoakam was
acting as an agent of law enforcement, suppression of Gideon’s statements under
Miranda is unavailing. Compare State v. Kuruc, 9th Dist. Medina No. 15CA0088M, 2017-Ohio-4112, ¶ 22 (“concluding that suppression was not warranted under
Miranda because, “[e]ven assuming that the Fire Chief and/or the other firefighters
here were acting as agents of the police when they met with Kuruc, the record does
not support his assertion that they subjected him to custodial interrogation). See
also State v. Woods, 4th Dist. Lawrence Nos. 16CA28 and 16CA29, 2018-Ohio4588, ¶ 49-50, 52.
Garrity
{¶23} “The Garrity rule * * * applies when the government threatens to
penalize the assertion of the Fifth Amendment privilege.” (Emphasis added.)
Goodpaster, 65 F.Supp.3d at 1023. Specifically, the Garrity rule applies “when a
person’s assertion of the privilege is penalized in a way that precludes that person
from choosing to remain silent and compels his or her incriminating testimony.”
Graham, 136 Ohio St.3d 125, 2013-Ohio-2114, at ¶ 20. “For instance, a person
need not assert the [self-incrimination] privilege in cases in which the state compels
the person to give up the ‘privilege by threatening to impose economic or other
sanctions “capable of forcing the self-incrimination which the [Fifth] Amendment
forbids.”’” Id., quoting Murphy, 465 U.S. at 434, quoting Lefkowitz v. Cunningham,

-17-

62a

Case Nos. 1-18-27, 1-18-28, 1-18-29

431 U.S. 801, 806, 97 S.Ct. 2132 (1977). “Where it has threatened to do so, the
government has created a ‘classic penalty situation,’ and any answers given by the
suspect are ‘deemed compelled and inadmissible in a criminal prosecution.’”
Goodpaster at 1024, quoting Murphy at 435.
{¶24} “[T]he constitutional protection ‘against coerced statements prohibits
use in subsequent criminal proceedings of statements obtained under threat of
removal from office, and that it extends to all, whether they are policemen or other
members of our body politic.’” Graham at ¶ 21, quoting Garrity, 385 U.S. at 500.
See Goodpaster at 1024 (noting that the “‘loss of job, loss of state contracts, loss of
future contracting privileges with the state, loss of political office, loss of the right
to run for political office in the future, and revocation of probation all are “penalties”
that cannot be imposed on the exercise of the privilege’”), quoting United States v.
Frierson, 945 F.2d 650, 658 (3d Cir.1991). See also Spevack v. Klein, 385 U.S.
511, 516, 87 S.Ct. 625 (1967) (applying the “classic-penalty-situation” rule to
lawyers and noting that “[t]he threat of disbarment and the loss of professional
standing, professional reputation, and of livelihood are powerful forms of
compulsion to make a lawyer relinquish the privilege”); Moody v. Michigan Gaming
Control Bd., 790 F.3d 669, 674 (6th Cir.2015) (applying the rule to state-license
holders).
{¶25} In classic-penalty-situation cases,

-18-

63a

Case Nos. 1-18-27, 1-18-28, 1-18-29

the government is playing two roles. One role is always law
enforcer—police and prosecutor. Often, as in Garrity, the second role
is employer, but it need not be. The key is that in these second roles,
the state has special relationships with certain people—employees,
probationers, and so on—through which it can apply additional
pressure to cooperate.
Goodpaster at 1024-1025.
Corresponding to these dual roles, the Fifth Amendment principle
implemented by Garrity can be implicated in two distinct contexts. In
the more common scenario, the individual does not succumb to the
state’s pressure, but stands upon his privilege and maintains his
silence; in this context, he appears as a civil plaintiff, seeking to
prevent the government—employer from “mak[ing] good on its prior
threat” by penalizing him.
Id., quoting Murphy at 434. “But sometimes, as in Garrity and Murphy, the
individual succumbs to the pressure and discloses incriminating information; in this
context, he appears as a criminal defendant, seeking to prevent the government—
prosecutor from using his statements against him.” Id., citing Murphy at 434.
{¶26} “Garrity does not, however, discount the important public interest in
obtaining information to ensure effective governmental functioning.” Graham at ¶
21, citing Turley, 414 U.S. at 81, citing Murphy v. Waterfront Comm. of New York
Harbor, 378 U.S. 52, 93, 84 S.Ct. 1594 (1964) (White, J., concurring). “Indeed, the
United States Supreme Court has recognized that Garrity rests on reconciling the
recognized policies behind the privilege against self-incrimination and the
government’s need to obtain information.” Id., citing Turley at 81. See also
Goodpaster at 1025, citing Gardner v. Broderick, 392 U.S. 273, 276, 88 S.Ct. 1913
-19-

64a

Case Nos. 1-18-27, 1-18-28, 1-18-29

(1968) and Murphy at 435. “A state may compel a public employee’s cooperation
in a job-related investigation, so long as the employee is not asked to surrender the
privilege against self-incrimination.” Graham at ¶ 21, citing Turley at 84. “For
example, the state may compel incriminating answers from its employee if neither
those answers nor the fruits thereof are available for use against the employee in
criminal proceedings.” Id., citing Turley at 84 and Jones v. Franklin Cty. Sheriff,
52 Ohio St.3d 40, 44 (1990) (stating that a grant of immunity preserves the selfincrimination privilege because no statement made in that context is incriminatory).
“But when the state compels testimony by threatening potent sanctions unless the
witness surrenders the constitutional privilege, the state obtains the testimony in
violation of the Fifth Amendment, and it may not use that testimony against the
witness in a subsequent criminal prosecution.” Id., citing Cunningham, 431 U.S. at
805 and State v. Jackson, 125 Ohio St.3d 218, 2010-Ohio-621, ¶ 14 (plurality
opinion) (noting that the State may not directly or derivatively use statements that
are compelled under threat of termination).

“This balance ‘provid[es] for

effectuation of the important public interest in securing from public employees an
accounting of their public trust.’” Id., quoting Cunningham at 806.
{¶27} “Compulsion within the meaning of Garrity is obvious in cases in
which, as in Garrity, the state has expressly confronted the public employee with
the inescapable choice of either making an incriminatory statement or being fired.”

-20-

65a

Case Nos. 1-18-27, 1-18-28, 1-18-29

(Emphasis added.) Id. at ¶ 23. In the absence of an express threat, “‘“for statements
to be considered compelled by threat of discharge, (1) a person must subjectively
believe that he will be fired for asserting the privilege, and (2) that belief must be
objectively reasonable under the circumstances.”’” Id., quoting State v. Brockdorf,
291 Wis.2d 635, 2006 WI 76, ¶ 25, quoting People v. Sapp, 934 P.2d 1367, 1372
(Colo.1997).

“Determining whether an employee’s subjective belief was

objectively reasonable requires a court to examine the totality of the circumstances.”
Id., citing Brockdorf at ¶ 36. “The circumstances must show some demonstrable
coercive action by the state beyond ‘[t]he general directive to cooperate.’” Id.,
quoting United States v. Vangates, 287 F.3d 1315, 1324 (11th Cir.2002).
{¶28} In this case, after concluding that there was no express threat of
penalty by Investigator Yoakam, the trial court examined whether Gideon
subjectively believed that he would be penalized and, if so, whether that belief was
objectively reasonable. The trial court found that Gideon “testified that he believed
he would be penalized” if he did not answer Investigator Yoakam’s questions. And,
in our review, the trial court’s finding is supported by competent, credible evidence
because Gideon testified as follows:
“My understanding is that I have a legal obligation to comply with
questions asked by the Medical Board and my understanding was that
I have an obligation to comply with Mr. Yoakam’s visit subject to
penalties if I didn’t, potentially even loss of licensure.”
(Oct. 13, 2017 Tr. at 72).
-21-

66a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶29} Nevertheless, the trial court ultimately concluded that Gideon’s belief
was not objectively reasonable based on the totality of the circumstances.
Specifically, the trial court found that Gideon,
a well-educated individual, initiated contact with the investigator,
spoke with him at his medical office after already communicating
with law enforcement, was given the opportunity to reschedule, took
the lead in the discussion throughout, treated/examined patients, and
never sought to invoke his Fifth Amendment rights.
(Case No. 17CRB01385, Doc. No. 17); (Case No. 17CRB01386, Doc. No. 17);
(Case No. 17CRB01387, Doc. No. 14). Even though the trial court’s findings are
primarily supported by competent, credible evidence, the trial court’s totality-ofthe-circumstances analysis necessarily applies to whether Gideon’s statements were
voluntary within the meaning of the Due Process Clause, or whether his statements
should be suppressed under Miranda.5 See, e.g., Schneckloth, 412 U.S. at 226
(noting that a court may consider a defendant’s age, education, intelligence, and
knowledge of his rights; the duration and nature of the detention and questioning;
and whether physical punishment was used or threatened to determine whether the
defendant’s statements were voluntary); Billenstein, 2014-Ohio-255, at ¶ 44 (noting
that the factors to consider when determining whether a custodial interrogation took

5

The trial court’s finding that Gideon “was given the opportunity to reschedule” is not supported by
competent, credible evidence. (Case No. 17CRB01385, Doc. No. 17); (Case No. 17CRB01386, Doc. No.
17); (Case No. 17CRB01387, Doc. No. 14). Rather, the record reflects that Investigator Yoakam asked
Gideon “if he would have a few minutes to chat with” him, which is different than offering Gideon the
opportunity to reschedule. (See Oct. 13, 2017 Tr. at 5). (See also State’s Ex. A). Indeed, Gideon testified
that Yoakam did not explicitly offer him the opportunity to reschedule. (Oct. 13, 2017 Tr. at 73).

-22-

67a

Case Nos. 1-18-27, 1-18-28, 1-18-29

place includes “(1) the location of the questioning; (2) duration of the questioning;
(3) statements made during the interview; (4) the presence or absence of physical
restraints; and (5) whether the interviewee was released at the end of the interview”).
{¶30} In considering the totality of the circumstances as to whether a person
was compelled to make statements against his or her own interest within the
meaning of Garrity—that is, whether the subject’s subjective belief that he or she
would be penalized for remaining silent was objectively reasonable—a trial court
must consider the circumstances surrounding the subject’s “‘duty to cooperate’ and
the threat of ‘administrative discipline.’” Goodpaster, 65 F.Supp. at 1032. See also
Graham, 136 Ohio St.3d 125, 2013-Ohio-2114, at ¶ 27. As to those circumstances,
the trial court specifically found that
the Board of Medical Examiners may consider a refusal to cooperate
with their investigations when reviewing Complaints, this does not
necessarily lead to a termination of his medical license. It just may be
one of the many considerations taken into account by the Board.
(Case No. 17CRB01385, Doc. No. 17); (Case No. 17CRB01386, Doc. No. 17);
(Case No. 17CRB01387, Doc. No. 14). See R.C. 4731.22 (Apr. 4, 2017) (current
version at R.C. 4731.22 (Mar. 20, 2019)).
{¶31} In our view, the trial court did not capture the concept of the statute
and, more importantly, failed to consider the totality of the circumstances
surrounding Gideon’s interview with Investigator Yoakam to determine whether
suppression is warranted under Garrity. Indeed, we cannot turn a blind eye to the
-23-

68a

Case Nos. 1-18-27, 1-18-28, 1-18-29

totality of the evidence presented at the suppression hearing supporting that
Gideon’s belief (that he would be penalized if he remained silent) was objectively
reasonable. The requirements of R.C. 4731.22 are but one piece of the puzzle.
R.C. Chapter 4731 and Garrity
{¶32} “R.C. Chapter 4731 provides for the establishment of the State
Medical Board and contains provisions concerning the licensing and disciplining of
physicians.” State ex rel. Corn v. Russo, 90 Ohio St.3d 551, 557 (2001). In general,
the board “has authority to investigate possible violations of the statutes and rules
governing the practice of medicine, to hold hearings, and to share its information
with other licensing boards and with law enforcement agencies.” 1999 Ohio
Atty.Gen.Ops. No. 1999-044, citing R.C. 4731.22(F). See also R.C. 4731.22(F)(1)
(April 6, 2017) (“The board shall investigate evidence that appears to show that
person has violated any provision of this chapter or any rule adopted under it.”)
(current version at R.C. 4731.22(F)(1) ((Mar. 20, 2019)).. “All investigations that
are conducted by the Board are conducted in accordance with R.C. 4731.22 and the
rules adopted by the Board under R.C. 4731.05.” State ex rel. Corn v. Russo, 8th
Dist. Cuyahoga No. 76730, 1999 WL 1085519, *8 (Nov. 24, 1999), rev’d on other
grounds, 90 Ohio St.3d at 557-558.6 In accordance with those investigations, the

6

This court could not find any administrative rules adopted by the State Medical Board pertaining to the
conduct of its investigators during the course of an investigation under R.C. 4731.22. See Ohio Adm.Code
4731-1-01, et seq. But see R.C. 4731.05(C) (stating that “[t]he state medical board shall develop requirements
for and provide appropriate initial and continuing training for investigators employed by the board to carry

-24-

69a

Case Nos. 1-18-27, 1-18-28, 1-18-29

board “is authorized to limit, revoke, or suspend a certificate or otherwise discipline
the holder of a certificate who commits any of a number of violations.” 1999 Ohio
Atty.Gen.Ops. No. 1999-044, citing R.C. 4731.22(A), (B).
{¶33} In particular, regarding the board’s disciplinary procedure, R.C.
4731.22(B) provides, in its relevant part, as follows:
The board, by an affirmative vote of not fewer than six members,
shall, to the extent permitted by law, limit, revoke, or suspend an
individual’s certificate to practice * * * or reprimand or place on
probation the holder of a certificate for one or more of the following
reasons:
***
(11) A plea of guilty to, a judicial finding of guilt of, or a judicial
finding of eligibility for intervention in lieu of conviction for, a
misdemeanor committed in the course of practice;
(12) Commission of an act in the course of practice that constitutes a
misdemeanor in this state, regardless of the jurisdiction in which the
act was committed;
(13) A plea of guilty to, a judicial finding of guilt of, or a judicial
finding of eligibility for intervention in lieu of conviction for, a
misdemeanor involving moral turpitude;
(14) Commission of an act involving moral turpitude that constitutes
a misdemeanor in this state, regardless of the jurisdiction in which the
act was committed;
***

out its duties under Chapter 4731. of the Revised Code. The training and continuing education may include
enrollment in courses operated or approved by the Ohio peace officer training commission that the board
considers appropriate under conditions set forth in section 109.79 of the Revised Code.”).

-25-

70a

Case Nos. 1-18-27, 1-18-28, 1-18-29

(34) Failure to cooperate in an investigation conducted by the board
under division (F) of this section, including failure to comply with a
subpoena or order issued by the board or failure to answer truthfully
a question presented by the board in an investigative interview, an
investigative office conference, at a deposition, or in written
interrogatories, except that failure to cooperate with an investigation
shall not constitute grounds for discipline under this section if a court
of competent jurisdiction has issued an order that either quashes a
subpoena or permits the individual to withhold the testimony or
evidence in issue.
R.C. 4731.22(B)(11)-(14), (34) (Apr. 4. 2017) (current version at R.C.
4731.22(B)(11)-(14), (34) (Mar. 20, 2019)).
{¶34} On appeal, the State argues that the trial court correctly concluded that
Gideon’s belief that he would suffer a penalty if he remained silent was not
objectively reasonable—that is, the State argues that the trial court correctly
concluded that Gideon’s belief was not objectively reasonable because R.C.
4731.22(B) does not result in an automatic penalty. In support of its argument, the
State contends that the word “shall” as used in R.C. 4731.22(B) “does not mandate
a medical license revocation, because the statute (1) requires an affirmative vote of
six board members; (2) provides limiting language on the board’s powers (‘to the
extent permitted by law’); and, (3) provides a variety of disciplinary options short
of revocation.” (Emphasis sic.) (Appellee’s Brief at 5-6).
{¶35} The State’s argument is problematic for a several reasons. The State’s
argument that Gideon’s belief could not be objectively reasonable because R.C.
4731.22(B) authorizes the board to institute a “variety of disciplinary options short
-26-

71a

Case Nos. 1-18-27, 1-18-28, 1-18-29

of license revocation” is misguided. Rather, the disciplinary options authorized by
the statute—namely, the authority to limit, revoke, suspend, reprimand, or place on
probation the holder of a medical license—are penalties for conduct, such as the
failure to cooperate in an investigation, that resemble the “classic penalty situation”
prohibited by Garrity and its progeny. See Schimmel, 2017-Ohio-7747, at ¶ 38
(recognizing that the Supreme Court of Ohio has not adopted a “narrow view” of
what constitutes a penalty within the meaning of Garrity), citing Graham, 136 Ohio
St.3d 125, 2013-Ohio-2114, at ¶ 27 (considering “disciplinary action up to and
including termination” as a penalty within the meaning of Garrity). See also
Murphy, 465 U.S. at 434 (“In each of the so-called ‘penalty’ cases, the state not only
compelled an individual to appear and testify, but also sought to induce him to forgo
the Fifth Amendment privilege by threatening to impose economic or other
sanctions ‘capable of forcing the self-incrimination which the Amendment
forbids.’”), quoting Cunningham, 431 U.S. at 806 (noting that the Fifth Amendment
protects against state-imposed “potent sanctions” or “substantial penalties”).
{¶36} Next, suppression under Garrity does not fail in the absence of a
statute clearly mandating an automatic penalty. See Goodpaster, 65 F.Supp. at 1029
(stating that “a clear-statement rule is foreclosed [because] threatening a penalty ‘by
implication’ is sufficient to create a penalty situation”), quoting United States v.
Saechao, 418 F.3d 1073, 1076-1080 (9th Cir.2005). See also Graham at ¶ 25

-27-

72a

Case Nos. 1-18-27, 1-18-28, 1-18-29

(considering a notice, which provided that the “failure to answer truthfully ‘may
lead to disciplinary action up to and including termination’”); United States v.
Camacho, 739 F.Supp. 1504, 1517, 1520 (S.D.Fla.1990) (considering a statute,
which provided “that a city employee who is guilty of insubordination may be
subject to dismissal, suspension, or demotion” when considered in combination with
the state’s conduct). “[E]vidence of an express threat of termination or a statute,
rule, or policy demanding termination will almost always be sufficient to show
coercion”; however, it is not the only evidence that can be considered. (Emphasis
added.) See Graham at ¶ 24; Walker v. State Med. Bd. of Ohio, 10th Dist. Franklin
No. 01AP-791, 2002 WL 243318, *5 (Feb. 21, 2002) (“The potential loss of her
medical license does not, in and of itself, raise a claim of compulsion by the state.”);
State v. Connor, 124 Idaho 547, 548, 861 P.2d 1212 (1993) (stating that evidence
of a “policy, rule, or regulation concerning the effect on the employment of a state
police officer who refuses to cooperate in an investigation” is evidence of “an
objectively reasonable belief that [the] use of the Fifth Amendment in response to
questions would result in” the loss of a job).
{¶37} Further, the State’s contention that “the mere possibility of license
revocation is insufficient to show that the person had an objectively reasonable
expectation of discharge” misconstrues the Supreme Court of Ohio’s recitation in
Graham. (Appellee’s Brief at 6, citing Graham at ¶ 23, citing Sapp, 934 P.2d at

-28-

73a

Case Nos. 1-18-27, 1-18-28, 1-18-29

1372). In Graham, the court offered that “‘ordinary job pressures, such as the
possibility of discipline or discharge for insubordination, are not sufficient to
support an objectively reasonable expectation of discharge.’” (Emphasis added.)
Graham at ¶ 23, quoting Sapp at 1372. The case to which the court cited in
Graham—Sapp—follows its “ordinary-job-pressures” statement with the rule that
for a “subjective belief that [a person] might be fired to be considered objectively
reasonable for purposes of Garrity immunity, it must be supported by some
demonstrable action of the state.”7 Sapp at 1372. Thus, a subjective belief will be
considered objectively reasonable if the state played a role in creating an impression
that the refusal to give a statement will be met with the type of penalty prohibited
under Garrity. Camacho at 1515, citing United States v. Solomon, 509 F.2d 863,
871-872 (2d Cir.1975) and United States v. Montanye, 500 F.2d 411, 415 (2d
Cir.1974).
{¶38} The evidence in the record reflects that the circumstances surrounding
the administrative investigation at issue in this case show some demonstrable,
coercive action by the state beyond the general directive to cooperate. Indeed, the
combination of Gideon’s duty to cooperate under R.C. 4731.22(B)(34) and
Investigator Yoakam’s process in this case exceeded an ordinary job pressure to

7

The Supreme Court of Ohio was not presented in Graham with a situation involving a subjective belief that
a person might suffer a penalty because the sanction in that case was expressly conveyed. See State v.
Graham, 136 Ohio St.3d 125, 2013-Ohio-2114, ¶ 25.

-29-

74a

Case Nos. 1-18-27, 1-18-28, 1-18-29

cooperate. As we have noted, R.C. 4731.22(B)(34) requires licensees to cooperate
with investigations of the board.8 Compare Goodpaster at 1029 (noting that
“Goodpaster was subject to a regulation * * * requiring that he ‘cooperate with all
audits, reviews, and investigations conducted by the Office of Inspector General’”),
quoting 39 C.F.R. 230.3(a). R.C. 4731.22(B) puts licensees on notice that their
failure to cooperate, amongst other reasons, will penalize their license (by a vote of
no fewer than six members of the board). Compare id. (“The same regulation
provides that ‘failing to cooperate [* * *] may be grounds for disciplinary or other
legal action.’”), quoting 39 C.F.R. 230.3(a).
{¶39} Further, in addition to R.C. 4731.22(B)(34)’s directive to cooperate
with the board’s investigation, the record reflects “some demonstrable action of the
state” supporting Gideon’s subjective belief. See Sapp at 1372; Camacho at 1518.
In this case, the demonstrable action of the State lies with Investigator Yoakam’s
conduct and his intent underlying that conduct. Compare Camacho, 739 F.Supp. at

8

It appears that the State contends that R.C. 4731.22(B)(34)’s duty to cooperate requires only that a subject
answer truthfully questions posed by an investigator of the board during an interview. Compare United
States v. Goodpaster, 65 F.Supp.3d 1016, 1029 (D.Or.2014) (noting that “[a]n order to ‘cooperate’ demands
more of the reasonable employee than an order merely to be ‘truthful’”), citing Minnesota v. Murphy, 465
U.S. 420, 434, 104 S.Ct. 1136 (1984) (observing that “Murphy’s probation condition [to be truthful]
proscribed only false statements”). That is, the State argues that “[t]elling falsehoods * * * is different than
remaining silent, and the Fifth Amendment is not implicated.” (Appellee’s Brief at 6). However, the text of
that subsection of the statute states that a subject must cooperate in investigations of the board. R.C.
4731.22(B)(34) proceeds to provide a non-exhaustive list of ways in which a subject must cooperate with an
investigation of the board—only one of which is to provide truthful answers to questions presented by the
board in an investigative interview. See In re Hartman, 2 Ohio St.3d 154, 155-156 (1983) (noting that the
word “‘including’ implies that that which follows is a partial, not an exhaustive listing of all that is subsumed
within the stated category. ‘Including’ is a word of expansion rather than one of limitation or restriction.”).

-30-

75a

Case Nos. 1-18-27, 1-18-28, 1-18-29

1518-1519 (construing the evidence in the record reflecting the “actions of the
investigators” to determine whether there was “demonstrable state conduct” and,
thus, whether the defendants’ beliefs that they would penalized for asserting their
Fifth Amendment rights were objectively reasonable).
{¶40} At the suppression hearing, Investigator Yoakam testified to the extent
that he collaborated with law enforcement as part of his investigation—that is, he
specifically stated that the investigation of Gideon “turned into a joint
investigation.” (Aug. 22, 2017 Tr. at 4); (Oct. 13, 2017 Tr. at 7, 20-21). Indeed,
Sergeant Hochstetler concurred that he and Investigator Yoakam agreed “to
cooperate with each other” during the course of their investigations. (Oct. 13, 2017
Tr. at 51-52). By cooperating, Sergeant Hochstetler clarified that meant that he and
Investigator Yoakam would share information. Investigator Yoakam elaborated
that the Revised Code permits him to share information obtained as part of his
investigations with law enforcement and that he will share such information if there
is “a shared interest.” (Id. at 19-20). Investigator Yoakam further testified that he
shared the information he collected (regarding Gideon) with the Bluffton Police
Department.
{¶41} Undeniably, R.C. 4731.22(F) provides, in relevant part, the following:
(3) In investigating a possible violation of this chapter or any rule
adopted under this chapter, * * * the board may question witnesses,
conduct interviews, administer oaths, order the taking of depositions,
inspect and copy any books, accounts, papers, records, or documents,
-31-

76a

Case Nos. 1-18-27, 1-18-28, 1-18-29

issue subpoenas, and compel the attendance of witnesses and
production of books, accounts, papers, records, documents, and
testimony, except that a subpoena for patient record information shall
not be issued without consultation with the attorney general’s office
and approval of the secretary and supervising member of the board.
***
(4) All * * * investigations * * * of the board shall be considered civil
actions for the purposes of section 2305.252 of the Revised Code.
(5) * * *
The board may share any information it receives pursuant to an
investigation * * * with law enforcement agencies, other licensing
boards, and other governmental agencies that are prosecuting,
adjudicating, or investigating alleged violations of statutes or
administrative rules.
R.C. 4731.22(F)(3)-(5) (Apr. 6, 2017) (current version at R.C. 4731.22(F)(3)-(5)
(Mar. 20, 2019)).9
{¶42} Thus, while there is nothing inherently wrong with Investigator
Yoakam and law enforcement’s agreement to share information, the evidence in the
record reveals that Investigator Yoakam exceeded statutorily permissible
collaboration by taking demonstrable steps to coerce Gideon to provide him an

9

R.C. 2305.252 applies to peer-review privilege. See, e.g., Cousino v. Mercy St. Vincent Med. Ctr., 6th Dist.
Lucas No. L-17-1218, 2018-Ohio-1550, ¶ 15 (“The purpose of this statute is to protect the integrity and
confidentiality of the peer review process so that health care entities have the freedom to meaningfully review
and critique—and thereby improve—the overall quality of the healthcare services they provide.”). The
statute also applies the peer-review privilege to only the Bureau of Workers’ Compensation (“BWC”);
however, the statute excepts the BWC to “share proceedings and records within the scope of the peer review
committee * * * with law enforcement agencies, licensing boards, and other governmental agencies that are
prosecuting, adjudicating, or investigating alleged violations of applicable statutes or administrative rules”.
R.C. 2305.252(B).

-32-

77a

Case Nos. 1-18-27, 1-18-28, 1-18-29

incriminating, oral and written statement in reliance on Gideon’s duty to cooperate.
In other words, Investigator Yoakam was posing as a “straw man” to effectuate law
enforcement’s criminal investigation. See State v. Gradisher, 9th Dist. Summit No.
24716, 2009-Ohio-6433, ¶ 23 (Belfance, J., dissenting) (approving the “concern that
government agents should not pose as ‘straw men’ in order to effectuate police
investigations”). Specifically, Investigator Yoakam contacted Sergeant Hochstetler
prior to interviewing Gideon, and “discussed that [he] was going to hold off on the
administrative investigation until [law enforcement determined] that [Investigator
Yoakam] could interview [Gideon].” (Oct. 13, 2017 Tr. at 7-8). Investigator
Yoakam’s intention for sharing his investigative plan with law enforcement was to
“determine how [law enforcement] was going to proceed with the criminal case”
because proving an administrative-sanction case is easier “from a criminal
conviction” as opposed to “through witness testimony.” (Id. at 15-16). That is, he
elaborated that his method is “what they call a bootstrap on a criminal case that’s
where a physician * * * is criminally charged, and the Board takes action on that
criminal disposition, and the other [is] based on information gathered in the course
of an investigation. Action that’s taken based on that.” (Id. at 15).
{¶43} Prior to Investigator Yoakam’s interview of Gideon, Sergeant
Hochstetler told Investigator Yoakam that Gideon “denied any improprieties during
[law enforcement’s] interview” of Gideon. (Oct. 13, 2017 Tr. at 21, 55). And, after

-33-

78a

Case Nos. 1-18-27, 1-18-28, 1-18-29

discussing Gideon’s denials to law enforcement with Sergeant Hochstetler,
Investigator Yoakam informed Sergeant Hochstetler that it would not be
“appropriate” for law enforcement to jointly interview Gideon with Investigator
Yoakam. (Id. at 28, 55-56). Specifically, Investigator Yoakam testified that
doctor’s [sic] are obligated to cooperate in our investigation. So [he]
did not want that to * * * impede in * * * any of the criminal
proceedings…And [he] didn’t want * * * there to be an issue that the
doctor provided a statement with law enforcement present because the
provider is obligated to cooperate in our investigations.
(Emphasis added.) (Id. at 29). (See also Oct. 13, 2017 Tr. at 55); (Defendant’s Ex.
4). In other words, Investigator Yoakam’s method was to avoid a scenario in which
his interview (of Gideon) could not be used as part of the criminal case because (as
indicated by Investigator Yoakam) the lack of a criminal conviction would make his
administrative-sanction case more cumbersome.

Compare Gradisher at ¶ 23

(Belfance, J., dissenting) (expressing concern that “government overreaching could
easily occur by pushing off criminal investigations to state agents so as to bypass
protection against the abridgement of an individual’s Fifth Amendment rights”);
Camacho, 739 F.Supp. at 1519 (noting that the investigator’s action in purposely
omitting “his preamble regarding voluntariness and compulsion * * * in order to
avoid flagging the issue of voluntariness” “speaks louder” than any belief that the
statements were voluntary and concluding that “the investigators’ central aim was
to take a statement first and litigate its admissibility later”).

-34-

79a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶44} Moreover, based on our review of the record, Investigator Yoakam’s
intent for the investigation reflects the demonstrable state action necessary to
support Gideon’s subjective belief that his medical license would be penalized if he
failed to cooperate with Investigator Yoakam’s investigation. Specifically,
Investigator Yoakam’s interview of Gideon reflects his intent to assist law
enforcement in obtaining a criminal conviction of Gideon for purposes of
influencing the outcome the administrative-sanction case against Gideon.
{¶45} Even though he is not a law enforcement officer, Investigator Yoakam
testified that he had law enforcement training and is familiar with the elements of
offenses under the Revised Code, including sexual imposition. Keeping his training
in mind, Investigator Yoakam arrived unannounced to Gideon’s medical office to
conduct his interview to catch him “off guard” “to get the truth out of [him].” (Oct.
13, 2017 Tr. at 5, 32-33). Despite Gideon having patient appointments at the time
of the visit, Investigator Yoakam did not advise Gideon that he did not have to speak
with him that day or otherwise offer to reschedule—he merely asked Gideon “if he
would have a few minutes to chat with” him. (Id. at 5). (See also State’s Ex. A).
In other words, Investigator Yoakam did nothing to dissuade Gideon’s belief that
he was statutorily obligated to cooperate with his investigation, which included
consenting to Investigator Yoakam’s request to “chat.” Compare Camacho at 1511
(“At no time during the interview or after did either Sergeant Green or Assistant

-35-

80a

Case Nos. 1-18-27, 1-18-28, 1-18-29

State Attorney DiGregory make any effort to dissuade Sinclair of his view that he
was compelled to give a statement or answer his question.”).
{¶46} Likewise, and unbeknownst to Gideon, Investigator Yoakam recorded
the interview even though it is not the board’s “protocol” to surreptitiously record
interviews of subjects. (See Aug. 22, 2017 Tr. at 5-6); (State’s Ex. A). (See also
Oct. 13, 2017 Tr. at 7, 13). Rather, as a “general practice” of his office, Investigator
Yoakam secretly records interviews of subjects involving sexual-impropriety
allegations. (Aug. 22, 2017 Tr. at 5-6). (See also Oct. 13, 2017 Tr. at 7, 33-34).
Further, Investigator Yoakam testified that he does not inform providers that they
are being recorded because “[s]ometimes if * * * a provider knows that they’re
being recorded then they’re more guarded in what they say.” (Oct. 13, 2017 Tr. at
34). Moreover, Investigator Yoakam chose not to inform Gideon that he intended
to share with law enforcement Gideon’s statements despite it being his intention to
do so.
{¶47} During the two-hour “chat,” Investigator Yoakam pressured Gideon
“that [he] wanted to get [the] interview done there * * * on all the subjects [he]
wanted to address, because [he] did not want to return” and that he “did not want to
drag him through the mud by interviewing multiple people.” (Emphasis added.)
(Id. at 39). Compare Camacho, 739 F.Supp. at 1518 (considering the evidence that
the defendants were not asked to provide statements, but rather, directed to provide

-36-

81a

Case Nos. 1-18-27, 1-18-28, 1-18-29

statements and the evidence that the investigators would not “even answer [the]
question as to whether the inquiry was administrative or criminal in nature”).
{¶48} In addition, during the interview, Investigator Yoakam advised
Gideon at multiple points to “to go back to [law enforcement] and change his
statement” to avoid facing possible falsification charges. (Oct. 13, 2017 Tr. at 22).
Investigator Yoakam’s insistence that Gideon return to law enforcement to change
his statement is also evidence supporting Gideon’s belief that a refusal to give a
statement will be met with a licensure penalty. That is, Investigator Yoakam’s
insistence that Gideon provide law enforcement with a statement reflects an intent
to coerce Gideon to cooperate with the investigation. Indeed, (as raised during
cross-examination) if Investigator Yoakam was “just concerned about [the] medical
investigation there would be no need to tell [Gideon] to go back to the police
department and change his statement * * *.” (Id. at 22).
{¶49} The record also reflects that Gideon and Investigator Yoakam
possessed an implicit, trust-like relationship and that Investigator Yoakam exploited
that relationship to satisfy his ulterior motive of coercing Gideon into making
statements against his interest for law enforcement to ultimately obtain a criminal
conviction against him. That is, Gideon and Investigator Yoakam had a 15-year
relationship during which Investigator Yoakam investigated a prior complaint
against Gideon (which was determined to be unsubstantiated). Based on their prior

-37-

82a

Case Nos. 1-18-27, 1-18-28, 1-18-29

relationship, Gideon initially contacted Investigator Yoakam by text message to
inform him of the complaints at issue in this case. Likewise, Investigator Yoakam
can be heard during the beginning of the interview recalling their past relationship
by reminding Gideon that he has never “judged” him in their past dealings—a
characterization to which Gideon agrees.

The record further reflects that

Investigator Yoakam was aware of Gideon’s religious beliefs and, as such, used the
words “confession” and “reconciliation” during his interview of Gideon because
Investigator Yoakam “figured he could relate to that.” (Oct. 13, 2017 Tr. at 41).
{¶50} At the conclusion of the interview, instead of reporting back to the
board, Investigator Yoakam immediately went to the Bluffton Police Department to
report Gideon’s confessions to law enforcement. (See Defendant’s Ex. 2). Despite
his employment responsibilities with the State Medical Board, Investigator Yoakam
chose to immediately share Gideon’s confessions with law enforcement “because
the doctor had [] an interview with [law enforcement] where he denied any
impropriety so [he] wanted to tell [law enforcement] what happened during [his]
interview.” (Oct. 13, 2017 Tr. at 26-27). Moreover, Investigator Yoakam agreed
that he “wanted to assist [law enforcement] in that criminal investigation by
providing [law enforcement] with statements made by Dr. Gideon during an
interview that same day * * *[.]” (Id. at 27).

-38-

83a

Case Nos. 1-18-27, 1-18-28, 1-18-29

{¶51} Accordingly, we conclude that, based on the facts and circumstances
presented by this case, Investigator Yoakam’s actions created an impression that
Gideon’s refusal to cooperate with his investigation would result in the type of
penalty prohibited under Garrity. See Camacho at 1520 (concluding “that the
actions of the State were directly implicated in creating [the] belief” that the
defendants’ subjective belief “that failure to answer would result in termination”).
Therefore, Gideon’s belief that his medical license would be penalized if he did not
cooperate with Investigator Yoakam’s investigation was objectively reasonable.
See id. Thus, Gideon’s statements were not voluntary within the meaning of
Garrity.

Accord Graham, 136 Ohio St.3d 125, 2013-Ohio-2114, at ¶ 30

(“Statements extracted under these circumstances cannot be considered voluntary
within the meaning of Garrity.”); Goodpaster, 65 F.Supp. at 1033 (Under the facts
presented, the Government created a ‘classic penalty situation’ by threatening to
punish Goodpaster for remaining silent. Accordingly, under the Supreme Court’s
decision in Garrity v. New Jersey and its progeny, Goodpaster’s statements must be
suppressed.”).
{¶52} For these reasons, we conclude that the trial court erred by denying
Gideon’s motion to suppress oral and written statements that he made to Investigator
Yoakam as evidence. His first assignment of error is sustained.

-39-

84a

Case Nos. 1-18-27, 1-18-28, 1-18-29

Assignment of Error No. II
The Trial Court’s Order Consolidating the Separately-Docketed
Sexual Imposition Charges for the Trial Exposed DefendantAppellant to a Substantial Likelihood that the Jury Would
“Bootstrap” the Allegations of Different Patients in
Contravention of Evid.R. 404(B) and R.C. 2907.06(B), and
Thereby Violated His Sixth and Fourteenth Amendment Right to
a Fundamentally Fair Jury Trial. (Apx. A-19; 04/20/18 Tr. 82-84;
04/21/18 Tr. 20-21)
Assignment of Error No. III
The Trial Court’s Instructions and the Prosecutor’s Closing
Argument Encouraged the Jurors to Consider the Testimony of
One Alleged Victim as Corroboration of the Testimony of
Another Alleged Victim in Contravention of Evid.R. 404(B) and
R.C. 2907.06(B), and Thereby Violated Defendant-Appellant’s
Right to a Fundamentally Fair Jury Trial Under the Sixth and
Fourteenth Amendments to the United States Constitution.
(04/18/18 Tr. 115-17; 04/21/18 44, 104-05, 114-15)
Assignment of Error No. IV
Defendant-Appellant’s Conviction for Sexual Imposition as to
Former Patient [M.M.] is Not Supported by Sufficient Evidence
to Satisfy the Requirements of the Due Process Clause of the
Fourteenth Amendment to the United States Constitution.
Alternatively, the Jury’s Guilty Verdict is Against the Manifest
Weight of the Evidence. (04/20/18 Tr. 79; 04/21/18 Tr. 20-21).
{¶53} In his second, third, and fourth assignments of error, Gideon argues
that: (1) he was unfairly prejudiced by the trial court’s order consolidating the cases
for purposes of trial; (2) the trial court and the State improperly encouraged the jury
to consider the testimony of one victim as corroborating evidence of the veracity of

-40-

85a

Case Nos. 1-18-27, 1-18-28, 1-18-29

another victim’s testimony; and (3) his conviction in case number 17CRB01385 is
based on insufficient evidence and is against the manifest weight of the evidence.
{¶54} In light of our decision to sustain Gideon’s first assignment of error,
his second, third, and fourth assignments of error are rendered moot, and we decline
to address them. App.R. 12(A)(1)(c); State v. Unger, 5th Dist. Stark No. 2016 CA
00148, 2017-Ohio-5553, ¶ 22; State v. Caldwell, 4th Dist. Jackson No. 97-CA-802,
1998 WL 8847, *2 (Jan. 8, 1998). See also State v. Ecker, 9th Dist. Summit No.
28431, 2018-Ohio-940, ¶ 10-12 (suggesting that joinder decisions are ripe for
review after the trial court has had the opportunity to evaluate a defendant’s Crim.R.
14 motion for severance at trial).
{¶55} Having found error prejudicial to the appellant herein in the particulars
assigned and argued in his first assignment of error, we reverse the judgments of the
trial court and remand for further proceedings.
Judgments Reversed and
Causes Remanded
WILLAMOWSKI and SHAW, J.J., concur.
/jlr

-41-

86a

87a

88a

89a

90a

91a

92a

93a

94a

95a

96a

97a

98a

W112 ﬁuprettte Qlnurt of

Clﬁhinfig
A

DEC 3

~
1

C

.>U."i‘.E.’

State of Ohio

Case No. 2019-1 104

3
5%

V.

E;

James A. Gideon

RECONSIDERATION ENTRY

?;

Allen County

ordered by the court that the motion for reconsideration in this case
granted, consistent with the reissued opinion.
It is

is

(Al1en&County Court ofAppeals; Nos. 1-18-27, 1-18-28 and I-18-29)

Maureen 0’Connor
Chieflustice

The Ofﬁcial Case Announcement can be found

at http://wvvw.supremecourt.ahio.gov/ROD/docs/

99a

2020

